<html>
<title> - FEMA CONTRACTING: REVIEWING LESSONS LEARNED FROM PAST DISASTERS TO IMPROVE PREPAREDNESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
  FEMA CONTRACTING: REVIEWING LESSONS LEARNED FROM PAST DISASTERS TO 
                          IMPROVE PREPAREDNESS

=======================================================================

                             JOINT HEARING

                               before the

                SUBCOMMITTEE ON EMERGENCY PREPAREDNESS,
                         RESPONSE, AND RECOVERY

                                and the

                 SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT,
                          AND ACCOUNTABILITY,
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2019

                               __________

                           Serial No. 116-18

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

       Available via the World Wide Web: http://www.govinfo.gov/
       

                               __________
                               
                               
                U.S. GOVERNMENT PUBLISHING OFFICE 
 37-475 PDF             WASHINGTON : 2019                   
 
 
 
 
 
 

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND RECOVERY

               Donald M. Payne Jr., New Jersey, Chairman
Cedric Richmond, Louisiana           Peter T. King, New York, Ranking 
Max Rose, New York                       Member
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
              Lauren McClain, Subcommittee Staff Director
          Diana Bergwin, Minority Subcommittee Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT, AND ACCOUNTABILITY

              Xochitl Torres Small, New Mexico, Chairwoman
Dina Titus, Nevada                   Dan Crenshaw, Texas, Ranking 
Bonnie Watson Coleman, New Jersey        Member
Nanette Diaz Barragan, California    Clay Higgins, Louisiana
Bennie G. Thompson, Mississippi (ex  Van Taylor, Texas
    officio)                         Mike Rogers, Alabama (ex officio)
                Lisa Canini, Subcommittee Staff Director
            Katy Flynn, Minority Subcommittee Staff Director
            
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Xochitl Torres Small, a Representative in Congress 
  From the State of New Mexico, and Chairwoman, Subcommittee on 
  Oversight, Management, and Accountability:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Dan Crenshaw, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Oversight, 
  Management, and Accountability:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12

                               Witnesses

Mr. Brian Kamoie, Associate Administrator for Mission Support, 
  Federal Emergency Management Agency, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Ms. Marie A. Mak, Director for Contracting and National Security 
  Acquisitions, Government Accountability Office:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
Ms. Katherine Trimble, Deputy Assistant Inspector General for 
  Audits, Office of the Inspector General, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29

                                Appendix

Questions From Chairman Bennie G. Thompson for Brian Kamoie......    57
Question From Chairman Donald M. Payne, Jr. for Brian Kamoie.....    59
Question From Chairwoman Xochitl Torres Small for Brian Kamoie...    59
Questions From Honorable Max Rose for Brian Kamoie...............    60
Questions From Honorable Al Green for Brian Kamoie...............    60
Questions From Honorable Yvette D. Clarke for Brian Kamoie.......    63
Questions From Honorable Cedric R. Richmond for Brian Kamoie.....    63
Question From Chairman Bennie G. Thompson for Marie A. Mak.......    64
Question From Honorable Al Green for Marie A. Mak................    64
Question From Chairman Bennie G. Thompson for Katherine Trimble..    65
Question From Honorable Al Green for Katherine Trimble...........    65


  FEMA CONTRACTING: REVIEWING LESSONS LEARNED FROM PAST DISASTERS TO 
                          IMPROVE PREPAREDNESS

                              ----------                              


                         Thursday, May 9, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
     Subcommittee on Emergency Preparedness, Response, and 
                                          Recovery, and the
 Subcommittee on Oversight, Management, and Accountability,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:03 a.m., 
in room 310, Cannon House Office Building, Hon. Donald M. 
Payne, Jr. [Chairman of the Subcommittee on Emergency 
Preparedness, Response, and Recovery], presiding.
    Present: Representatives Payne, Torres Small, Titus, Rose, 
Underwood, Barragan, Green, Clarke, Thompson, King, Crenshaw, 
Joyce, Higgins, and Taylor.
    Mr. Payne. Seeing that we have a quorum, the Committee on 
Homeland Security will come to order.
    The committee is meeting today to receive testimony on 
``FEMA Contracting: Reviewing Lessons Learned from Past 
Disasters to Improve Preparedness.''
    I would like to thank Chairwoman Torres Small and Ranking 
Member Crenshaw of the Oversight, Management, and 
Accountability Subcommittee for coming together with Ranking 
Member King and me to hold this hearing.
    I would also like to thank the witnesses for being here 
today to discuss disaster contracting.
    This week is Hurricane Preparedness Week, and today marks 
22 days until the 2019 hurricane season begins. Unfortunately, 
there are still real questions about FEMA's preparedness for 
disasters, not the least of which is that there is not a 
confirmed administrator at the helm of FEMA.
    I am particularly concerned about FEMA's contracting for 
disasters. Proper disaster contracting is crucial to the 
successful response efforts, as disaster contracts provide for 
several survival and comfort items like food, water, blankets, 
and cots that communities need following a major devastation. 
Disaster contracts also provide for important response-related 
services like debris removal, translators, and housing 
inspectors.
    While the magnitude of the effects of hurricanes, 
earthquakes, wildfires, and the like are obvious, FEMA seems to 
continually fall short in the realm of disaster contracting.
    From Hurricane Katrina, we learned that one of the most 
important aspects of disaster preparedness is advance 
contracting. However, here we are, 14 years after Katrina, and 
the Government Accountability Office noted in its December 2018 
report, GAO-19-93, on 2017 disaster contracting that FEMA still 
needs to improve its advance contracting practices.
    Specifically, the GAO found that the advance contracts FEMA 
had in place prior to the 2017 hurricane season were not 
sufficient to cover the need, the absence of which caused FEMA 
to scramble to enter into post-disaster contracts. Simply put, 
there needs to be more contracts in place before a disaster 
strikes.
    While it is difficult to predict exact needs prior to 
disasters, we do know that hurricane season every June 1 to 
November 30, and history has shown us that FEMA is likely to be 
underprepared in some fashion.
    From a recent April 2019 GAO report, GAO-19-281, we also 
know that FEMA is still struggling with acquiring and retaining 
its disaster contracting work force. The absence of adequate 
staffing levels causes undue delays in the screening and 
delivery of important goods and services by impacted 
communities following a disaster.
    Then there are instances in the 2017 such as the failed 
Bronze Star and Tribute contracts from FEMA. In the case of the 
Bronze Star contract, deficiencies in FEMA's contract 
procedures resulted in delayed delivery of crucial supplies 
that would have helped Puerto Ricans protect their homes from 
further damage after Hurricane Maria. Similarly, the Tribute 
contract was for 30 million emergency meals, and it had to be 
canceled after Tribute only delivered 50,000 of the 30 million 
meals required. These types of contracting errors are troubling 
and have major consequences.
    We need to have an honest conversation today about how FEMA 
should proceed with preventing future contracting missteps, the 
results of which are Americans going without emergency goods 
and services.
    When a disaster strikes, the American people depend on the 
Federal Government to get it right. Yet, as the GAO has 
reported, FEMA's disaster contracting apparatus is unprepared, 
and its disaster contract work force is overwhelmed and 
overworked. FEMA itself also has acknowledged its contracting 
work force shortcomings, as evidenced in their ``2017 Hurricane 
Season After-Action Report.''
    To make matters worse, the President has again proposed 
cuts to the agency's discretionary funding, further 
complicating FEMA's ability to address disaster contracting 
work force challenges.
    Furthermore, the recent Federal Government shut down, 
roughly 6 months before the start of hurricane season, caused 
FEMA to order a stop on outstanding contracts, causing the 
agency to lose valuable disaster contracting preparation time.
    Emergency preparedness, response, and recovery is too 
important of a mission for this agency to consistently struggle 
with disaster contracting. Having experienced the horrors 
disasters can cause, a community with Hurricane Sandy, I know 
how critical it is for FEMA to have effective processes in 
place before a disaster strikes.
    With this, I look forward to engaging with the DHS Office 
of Inspector General and the GAO about underlying issues that 
they have identified that seem to chronically cause FEMA to 
miss the mark with disaster contracting. I also look forward to 
hearing from FEMA about what Congress can do to help the agency 
improve its disaster contracting.
    [The statement of Chairman Payne follows:]
               Statement of Chairman Donald M. Payne, Jr.
                              May 9, 2019
    This week is Hurricane Preparedness Week, and today marks 22 days 
until the 2019 hurricane season begins. Unfortunately, there are still 
real questions about FEMA's preparedness for disasters, not the least 
of which is that there is not a confirmed administrator at the helm of 
FEMA.
    I am particularly concerned about FEMA's contracting for disasters. 
Proper disaster contracting is crucial to successful response efforts, 
as disaster contracts provide for several survival and comfort items 
like food, water, blankets, and cots that communities need following 
major devastation. Disaster contracts also provide for important 
response-related services like debris removal, translators, and housing 
inspectors. While the magnitude of the effects of hurricanes, 
earthquakes, wildfires, and the like are obvious, FEMA seems to 
continually fall short in the realm of disaster contracting.
    From Hurricane Katrina, we learned that one of the most important 
aspects of disaster preparedness is advanced contracting. However, here 
we are 14 years after Hurricane Katrina, and the Government 
Accountability Office (GAO) noted in its December 2018 report (GAO-19-
93) on 2017 disaster contracting that FEMA still needs to improve its 
advanced contracting practices. Specifically, the GAO found that the 
advanced contracts FEMA had in place prior to the 2017 hurricane season 
were not sufficient to cover the need; the absence of which caused FEMA 
to scramble to enter into post-disaster contracts. Simply put, there 
needs to be more contracts in place before a disaster strikes. While it 
is difficult to predict exact needs prior to disasters, we do know that 
hurricane season is every June 1--November 30; and history has shown us 
that FEMA is likely to be under-prepared in some fashion.
    From a recent April 2019 GAO report (GAO-19-281), we also know that 
FEMA is still struggling with acquiring and retaining its disaster 
contracting work force. The absence of adequate staffing levels causes 
undue delays in the securing and delivery of important goods and 
services impacted communities need following disasters. Then there were 
instances in 2017 such as the failed Bronze Star and Tribute contracts 
from FEMA. In the case of the Bronze Star contract, deficiencies in 
FEMA's contracting procedures resulted in delayed delivery of crucial 
supplies that would have helped Puerto Ricans protect their homes from 
further damage after Hurricane Maria. Similarly, the Tribute contract 
was for 30 million emergency meals and it had to be canceled after 
Tribute only delivered 50,000 of the 30 million meals required. These 
types of contracting errors are troubling and have major consequences.
    We need to have an honest conversation today about how FEMA should 
proceed with preventing future contracting missteps, the results of 
which are Americans going without emergency goods and services. When 
disaster strikes, the American people depend on the Federal Government 
to get it right. Yet, as the GAO has reported, FEMA's disaster 
contracting apparatus is unprepared, and its disaster contracting work 
force is overwhelmed and overworked. FEMA itself also has acknowledged 
its contracting work force shortcomings, as evidenced in their 2017 
Hurricane Season After-Action Report. To make matters worse, the 
President has again proposed cuts to the agency's discretionary 
funding, further complicating FEMA's ability to address disaster 
contracting work force challenges.
    Furthermore, the recent Federal Government shutdown--roughly 6 
months before the start of hurricane season--caused FEMA to order a 
stop on outstanding contracts; causing the agency to lose valuable 
disaster contracting preparation time. Emergency preparedness, 
response, and recovery is too important of a mission for this agency to 
consistently struggle with disaster contracting. Having experienced the 
horrors disasters can cause a community with Hurricane Sandy, I know 
how critical it is for FEMA to have effective processes in place before 
disaster strikes.
    With this, I look forward to engaging with the DHS Office of 
Inspector General and the GAO about the underlining issues they have 
identified that seem to chronically cause FEMA to miss the mark with 
disaster contracting. I also look forward to hearing from FEMA about 
what Congress can do to help the agency improve its disaster 
contracting practices.

    Mr. Payne. With that, I now recognize the Ranking Member of 
the Emergency Preparedness, Response, and Recovery 
Subcommittee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Mr. Chairman. I appreciate this 
hearing, and thank you for calling it and working with our 
colleagues on this with the two subcommittees.
    In 2012, Superstorm Sandy wreaked havoc on the States of 
New York and New Jersey, as you well know, as well as 10 other 
States, resulting in around 150 deaths, hundreds of thousands 
of impacted residents, and over $65 billion in damages. The 
storm's effects were widespread and extensive, with substantial 
flooding, massive power outages, and fuel shortages in parts of 
the region.
    Following Hurricane Sandy, FEMA released an after-action 
report detailing successes, lessons learned, and areas of 
needed improvement in hurricane recovery efforts.
    One area highlighted for improvement was reducing the 
complexity of the public assistance program. FEMA's public 
assistant grant program provides Federal assistance to State, 
local, Tribal, and certain private and nonprofit organizations 
following a Presidential major disaster declaration.
    While FEMA did take several steps to help Government 
officials better understand this program and reduce the 
complexity of rules, State and local officials to express 
confusion regarding the program, and lack of clarity delayed 
recovery efforts.
    The Sandy Recovery Improvement Act of 2013 improved the 
public assistance program by providing alternative procedures 
to allow for flexibility for recovery projects that encourage 
timely and cost-effective completion. These alternative 
procedures rely on fixed-cost estimates that allow recipients 
or subrecipients to use remaining funds for other eligible 
purposes if the cost of the project is below the estimate.
    FEMA's Hurricane Sandy after-action report noted that the 
new public assistance program can, ``serve as a springboard for 
FEMA to continue reducing the complexity of the PA program.''
    However, according to the DHS Office of Inspector General, 
FEMA continues to fail in overseeing grant recipients' 
effective management of disaster relief grants, which poses 
potential financial risks to taxpayers.
    The GAO has reported on FEMA's need for better management 
of its advance contract program. Advance contracts for goods 
and services enable the Government to quickly and effectively 
mobilize resources in the aftermath of a disaster.
    Among other recommendations, GAO recommends that FEMA 
update its strategy for advance contracts to provide clear 
guidance on the use and prioritization of such contracts so 
they can quickly and cost-effectively provide goods and 
services to disaster-stricken areas. Delays in response and 
recovery efforts due to a lack of coordination and inconsistent 
information are not acceptable.
    Following major disasters, advance and post-disaster 
Federal contracts and assistance are essential to rebuilding 
our Nation's communities. It is imperative that FEMA continues 
to streamline its efforts to ensure proper oversight, improve 
coordination, and maintain its focus on survivors and their 
recovery needs.
    Mr. Chairman, I look forward to hearing from our witnesses 
today--I want to thank them for being here--on how to improve 
FEMA contracting mechanisms so that response and recovery 
efforts are timely and effective following catastrophic 
disasters and emergencies.
    I yield back. Thank you.
    [The statement of Ranking Member King follows:]
               Statement of Ranking Member Peter T. King
                              May 9, 2019
    In 2012, Superstorm Sandy wreaked havoc on the States of New York 
and New Jersey, as well as 10 other States, resulting in around 150 
deaths, hundreds of thousands of impacted residents, and over $65 
billion in damages. The storm's effects were widespread and extensive, 
with substantial flooding, massive power outages, and fuel shortages in 
parts of the region.
    Following Hurricane Sandy, FEMA released an After-Action Report 
detailing successes, lessons learned, and areas of needed improvement 
in hurricane recovery efforts.
    One area highlighted for improvement was ``reducing the complexity 
of the public assistance program.'' FEMA's public assistance grant 
program provides Federal assistance to State, local, Tribal, and 
certain private non-profit organizations following a Presidential major 
disaster declaration.
    While FEMA did take several steps to help Government officials 
better understand the public assistance program and reduce the 
complexity of program rules, State and local officials continued to 
express confusion regarding the program, and the lack of clarity 
delayed recovery efforts.
    The Sandy Recovery Improvement Act of 2013 improved the public 
assistance program by providing alternative procedures to allow for 
flexibility for recovery projects that encourage timely and cost-
effective completion.
    These alternative procedures rely on fixed-cost estimates that 
allow recipients or subrecipients to use remaining funds for other 
eligible purposes if the cost of the project is below the estimate. 
FEMA's Hurricane Sandy After-Action Report noted that the new public 
assistance procedures ``can serve as a springboard for FEMA to continue 
reducing the complexity of the PA program.''
    However, according to the DHS Office of Inspector General, FEMA 
continues to fail in overseeing grant recipients' effective management 
of disaster relief grants which poses potential financial risks to 
taxpayers.
    The Government Accountability Office (GAO) has reported on FEMA's 
need for better management of its Advance Contract program. Advance 
contracts for goods and services enable the Government to quickly and 
effectively mobilize resources in the aftermath of a disaster.
    Among other recommendations, GAO recommends that FEMA update its 
strategy for advance contracts to provide clear guidance on the use and 
prioritization of such contracts so that they can quickly and cost-
effectively provide goods and services to disaster-stricken areas.
    Delays in response and recovery efforts due to lack of coordination 
and inconsistent information are not acceptable.
    Following major disasters, advance and post-disaster Federal 
contracts and assistance are essential to rebuilding our Nation's 
communities. It is imperative that FEMA continues to streamline its 
processes to ensure proper oversight, improve coordination, and 
maintain its focus on survivors and their recovery needs.
    I look forward to hearing from our witnesses today on how to 
improve FEMA contracting mechanisms so that response and recovery 
efforts are timely and effective following catastrophic disasters and 
emergencies.

    Mr. Payne. Thank you, Mr. King.
    I now recognize the Chairwoman of the Oversight, 
Management, and Accountability Subcommittee, the gentlewoman 
from New Mexico, Ms. Torres Small, for an opening statement.
    Ms. Torres Small. Thank you, Chairman Payne. Thanks for the 
opportunity to co-chair this hearing with you.
    With the 2019 hurricane season just 3 weeks away, this 
hearing couldn't be more timely. It is an opportunity to 
discuss lessons learned from past disasters and assess whether 
necessary improvements have been made to ready the Nation for 
future events.
    Disasters can strike with little to no warning. We 
unfortunately experienced this first-hand in my district in New 
Mexico when a tornado touched down outside of Dexter this past 
March. I would also like to acknowledge those affected by the 
flooding in Ranking Member Crenshaw's district.
    These disasters demonstrate that at a moment's notice FEMA 
may need to assist thousands of survivors who suddenly have an 
immediate need for emergency goods and services. FEMA cannot 
prepare for every eventuality, but as the frequency and 
severity of natural disasters increase, it is as important as 
ever that the agency take corrective action to better execute 
its no-fail mission.
    Disaster contracting is one area where improvements are 
most needed. As the witnesses from GAO and the DHS Office of 
the Inspector General can confirm, FEMA has a checkered history 
with the disaster response and recovery contracts it awards and 
oversees.
    I am glad that some improvements have been made since 
Hurricane Katrina struck the Gulf Coast in 2005. For example, 
more contracts are being competitively bid, reducing the 
potential for waste, fraud, and abuse, and more contracts are 
being awarded to local vendors, stimulating local economies.
    But challenges remain. FEMA still struggles to utilize 
advance contracts. These contracts are awarded prior to a 
natural disaster when there is not an urgent need for emergency 
goods and services, which allows FEMA to maximize competition 
and properly evaluate vendors' qualities.
    We saw this problem borne out in the response to Hurricanes 
Harvey, Irma, and Maria. In multiple instances, FEMA had to 
cancel contracts it awarded after a hurricane hit rather than 
relying on advance contracts that were in place prior to a 
storm.
    Some of the vendors had no business being awarded 
Government contracts. FEMA awarded more than $30 million worth 
of emergency tarps and sheeting contracts to a company that was 
formed just weeks before Hurricane Maria struck. It is no 
surprise that this company failed to deliver.
    Another firm, with one employee and a history of canceled 
contracts, was for some reason entrusted to deliver 30 million 
meals to hurricane survivors in Puerto Rico. Less than a month 
later, the company only managed to supply 50,000 meals, about 
one-tenth of 1 percent of what was agreed to. Not surprisingly, 
FEMA had to cancel this contract too.
    If FEMA had had more advance contracts in place or a better 
process for vetting vendors after a hurricane hit, some of 
these mistakes could have been avoided.
    FEMA must also do a better job of overseeing disaster 
contracts awarded by State and local governments. As the 
Inspector General has reported, local emergency managers, some 
of whom may be dealing with a disaster for the first time, need 
guidance and training from FEMA on how to follow Federal 
procurement regulations. At the end of the day, it is Federal 
tax dollars that are on the line.
    As the Chair of our Oversight, Management, and 
Accountability Subcommittee, I am also concerned about FEMA's 
ability to recruit and retain qualified contracting officers. I 
understand that, as of January, more than one-third of the 
positions within FEMA's Office of the Chief Procurement Officer 
were vacant, and the agency has actually lost contracting staff 
since 2017.
    This is not the direction we need to be headed. If 
anything, FEMA needs more contracting officers, not less. These 
should be permanent positions, not the short-term hires FEMA is 
using as a stopgap.
    Mr. Kamoie, I look forward to learning about the steps you 
have taken over the past 2 years to assess FEMA's work force 
needs and to hire more contracting staff in particular. The 
agency's procurement office needs to be at full strength as we 
head into the 2019 hurricane season.
    Thank you again, Mr. Chairman, for holding this hearing. I 
look forward to a fruitful discussion with all three of our 
witnesses here today.
    [The statement of Chairwoman Torres Small follows:]
              Statement of Chairwoman Xochitl Torres Small
                              May 9, 2019
    With the 2019 hurricane season just 3 weeks away, this hearing 
couldn't be more timely. It is an opportunity to discuss lessons 
learned from past disasters and assess whether necessary improvements 
have been made to ready the Nation for future events.
    Disasters can strike with little to no warning. We unfortunately 
experienced this first-hand in my district in New Mexico when a tornado 
touched down outside of Dexter this past March. I'd also like to 
acknowledge those affected by the flooding in Ranking Member Crenshaw's 
district. These disasters demonstrate that at a moment's notice, FEMA 
may need to assist thousands of survivors who suddenly have an 
immediate need for emergency goods and services. FEMA cannot prepare 
for every eventuality. But as the frequency and severity of natural 
disasters increase, it is as important as ever that the agency take 
corrective action to better execute its no-fail mission.
    Disaster contracting is one area where improvements are most 
needed. As the witnesses from GAO and the DHS Office of Inspector 
General can confirm, FEMA has a checkered history with the disaster 
response and recovery contracts it awards and oversees. I am glad that 
some improvements have been made since Hurricane Katrina struck the 
Gulf Coast in 2005. For example, more contracts are being competitively 
bid, reducing the potential for waste, fraud, and abuse. And more 
contracts are being awarded to local vendors, stimulating local 
economies.
    But challenges remain. FEMA still struggles to utilize advance 
contracts. These contracts are awarded prior to a natural disaster when 
there is not an urgent need for emergency goods and services, allowing 
FEMA to maximize competition and properly evaluate vendors' 
qualifications. We saw this problem borne out in the response to 
Hurricanes Harvey, Irma, and Maria. In multiple instances, FEMA had to 
cancel contracts it awarded after a hurricane hit--rather than relying 
on advance contracts that were in place prior to a storm. Some of the 
vendors had no business being awarded Government contracts. FEMA 
awarded more than $30 million worth of emergency tarps and sheeting 
contracts to a company that was formed just weeks before Hurricane 
Maria struck. It's no surprise this company failed to deliver. Another 
firm with one employee and a history of canceled contracts was, for 
some reason, entrusted to deliver 30 million meals to hurricane 
survivors in Puerto Rico. Less than a month later, the company only 
managed to supply 50,000 meals, about one-tenth of 1 percent of what 
was agreed to. Not surprisingly, FEMA had to cancel this contract too. 
If FEMA had had more advance contracts in place--or a better process 
for vetting vendors after the hurricane hit--some of these mistakes 
could have been avoided.
    FEMA also must do a better job of overseeing disaster contracts 
awarded by State and local governments. As the inspector general has 
reported, local emergency managers--some of whom may be dealing with a 
disaster for the first time--need guidance and training from FEMA on 
how to follow Federal procurement regulations. At the end of the day, 
it's Federal tax dollars that are on the line.
    As the chair of our Oversight, Management, and Accountability 
Subcommittee, I'm also concerned about FEMA's ability to recruit and 
retain qualified contracting officers. I understand that, as of 
January, more than one-third of the positions within FEMA's Office of 
the Chief Procurement Officer were vacant, and the agency has actually 
lost contracting staff since 2017. This is not the direction we need to 
be headed. If anything, FEMA needs more contracting officers--not less. 
And these should be permanent positions, not the short-term hires FEMA 
is using as a stop-gap.
    Mr. Kamoie, I look forward to learning about the steps you have 
taken over the past 2 years to assess FEMA's work force needs and to 
hire more contracting staff in particular. The agency's procurement 
office needs to be at full strength as we head into the 2019 hurricane 
season.

    Mr. Payne. Thank you, Chairwoman.
    I now recognize the Ranking Member of the Oversight, 
Management, and Accountability Subcommittee, the gentleman from 
Texas, Mr. Crenshaw, for an opening statement.
    Mr. Crenshaw. Thank you, Chairman Payne, Ranking Member 
King, and Chairwoman Torres Small. It is great to be with all 
of you.
    Thank you to our witnesses for being here.
    I have been here long enough to see the range of issues 
this committee deals, from countering threats from terrorist 
activity, to cybersecurity, to National disasters. All can be 
harmful, affect National security, and, most importantly, 
impact the American people.
    I am pleased we are holding this hearing today to explore 
the ways FEMA can improve its contracting. FEMA has one of the 
most important functions of the Federal Government in helping 
our citizens prepare for and recover from disasters.
    My home State of Texas witnessed the devastation that 
nature can cause when Hurricane Harvey hit in late August 2017. 
It is something my constituents and I saw and dealt with first-
hand. That storm brought torrential downpours that caused 
catastrophic flooding in Houston and many of the areas I 
represent. Hurricane Harvey cost 107 people their lives and is 
estimated to have cost $125 billion in damage.
    But Texans are resilient. During the storm, we evacuated 
our neighbors with the help of our friends from the Cajun Navy, 
volunteers from across the country, the Texas National Guard, 
and the U.S. Coast Guard. As soon as the waters receded, we got 
to work with recovery.
    It has been over 600 days, and we are still recovering and 
rebuilding after the devastation caused by this storm. While we 
are grateful for the assistance from FEMA, we must always ask 
ourselves how we can do better. It is our role to review the 
activities of Federal agencies and determine what we can do 
better to serve our constituents and the American taxpayer. 
That is part of our oversight role in Congress and on this 
committee.
    While 2017 was an unusual year because of the unprecedented 
number of disasters, including Hurricanes Harvey, Irma, and 
Maria and the California wildfires, FEMA must be prepared for 
all disasters regardless of their frequency.
    FEMA assists with disaster recovery utilizing three 
different methods. After Hurricane Katrina in 2005, FEMA began 
using advance contracts for goods and services it typically 
needs in a disaster. The Agency also provides help after a 
disaster through post-disaster contracts and public assistance 
grants. In the 2017 disaster season, many of the post-disaster 
contracts were for power distribution equipment and food and 
water. FEMA uses public assistance grants to supplement State 
and local efforts for things like debris removal and emergency 
protective measures as well as projects to repair 
infrastructure and facilities.
    Responsible administration of these contracts is vital to 
helping the victims of a disaster recover and in helping the 
States and localities recover and rebuild. We need to get these 
contracts right to ensure that we can adequately address basic 
needs immediately following a disaster.
    As we rebuild our communities, we need to ensure that 
Federal funds are not wasted either. We should not be picking 
winners and losers with these contracts. They need to be 
entered with the goal of ensuring that everyone wins--the 
victims, the communities, the contractors, and the taxpayers. 
FEMA needs to continuously improve its management and oversight 
of its contracts to ensure that this is the case.
    While I applaud FEMA for its excellent work in helping 
rebuild lives and communities after a disaster, we all must 
recognize that there may be ways to improve its operations. I 
look forward to hearing from the witnesses today on the best 
ways to add accountability and oversight in the disaster 
recovery process.
    I would also like to add that I have a report prepared by 
the Texas General Land Office on lessons learned from Hurricane 
Harvey. This is a detailed proposal that I think FEMA should 
have, and I ask unanimous consent to enter it into the record.
    Mr. Payne. Duly noted.\1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and is 
available at http://www.glo.texas.gov/recovery/files/texas-at-risk-
report.pdf.
---------------------------------------------------------------------------
    Mr. Crenshaw. I yield back the balance of my time. Thank 
you.
    [The statement of Ranking Member Crenshaw follows:]
                Statement of Ranking Member Dan Crenshaw
                              May 9, 2019
    I've been here long enough to see the range of issues this 
committee deals with. From countering threats from terrorist activity, 
to cybersecurity, to natural disasters. All can be harmful, affect 
National security, and most importantly, impact the American people.
    I am pleased we are holding this hearing today to explore the ways 
FEMA can improve its contracting. FEMA has one of the most important 
functions of the Federal Government in helping our citizens prepare for 
and recover from disasters.
    My home State of Texas witnessed the devastation nature can cause 
when Hurricane Harvey hit in late August 2017.
    It is something my constituents and I saw and dealt with first-
hand.
    That storm brought torrential downpours that caused catastrophic 
flooding in Houston and many of the areas I represent. Hurricane Harvey 
cost 107 people their lives, is estimated to have caused 125 billion 
dollars in damage.
    Texans are resilient. During the storm we evacuated our neighbors, 
with the help of our friends from the Cajun Navy, volunteers from 
across the country, the Texas National Guard and the U.S. Coast Guard. 
As soon as the waters receded we got to work with recovery.
    It's been over 600 days and we are still recovering and rebuilding 
after the devastation caused by this storm. While we are grateful for 
the assistance from FEMA, we must always ask ourselves, how can we do 
better? It is our role to review the activities of Federal agencies and 
determine what we can do better to serve our constituents and the 
American taxpayer. That is part of our oversight role in Congress and 
on this committee.
    While 2017 was an unusual year because of the unprecedented number 
of disasters, including Hurricanes Harvey, Irma, and Maria, and the 
California wildfires, FEMA must be prepared for all disasters 
regardless of their frequency. FEMA assists with disaster recovery 
utilizing three different methods.
    After Hurricane Katrina in 2005, FEMA began using advance contracts 
for goods and services it typically needs in a disaster. The agency 
also provides help after a disaster through post-disaster contracts and 
public assistance grants.
    In the 2017 disaster season, many of the post-disaster contracts 
were for power distribution equipment and food and water. FEMA uses 
public assistance grants to supplement State and local efforts for 
things like debris removal and emergency protective measures as well as 
projects to repair infrastructure and facilities.
    Responsible administration of these contracts is vital in helping 
the victims of a disaster recover and in helping the States and 
localities recover and rebuild. We need to get these contracts right to 
ensure that we can adequately address basic needs immediately following 
a disaster.
    As we rebuild our communities, we need to ensure that Federal funds 
are not wasted. We should not be picking winners and losers with these 
contracts; they need to be entered with the goal of ensuring that 
everyone wins--the victims, the communities, the contractors, and the 
taxpayers.
    FEMA needs to continuously improve its management and oversight of 
its contracts to ensure that this is the case. While I applaud FEMA for 
its excellent work in helping rebuild lives and communities after a 
disaster, I recognize that there may be ways to improve its operations. 
I look forward to hearing from the witnesses today on the best ways to 
add accountability and oversight in the disaster recovery process.

    Mr. Payne. Thank you, sir.
    Now it is now my honor recognize the overall Chairman of 
the Homeland Security Committee, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Good morning to our panel of witnesses.
    I want to thank both you and Chairwoman Torres Small for 
holding this hearing today and to the witnesses for being here.
    Disaster contracting is a central component of disaster 
preparedness and an issue that I have been following for quite 
some time.
    Since Hurricanes Katrina exposed gaps in FEMA's disaster 
contracting practices in 2005, the agency still has not managed 
to make the necessary adjustments that facilitate smoother 
response and recovery efforts and make FEMA a better steward of 
taxpayers' dollars. Moving into the 2019 hurricane season, I am 
concerned that FEMA will fall short in this area once again.
    To add to my worry, for the last 2 months, FEMA has not had 
a Senate-confirmed administrator. In the absence of permanent 
leadership, FEMA is likely to get even further behind with 
preparing its disaster contracting initiatives.
    Contracting is incredibly important to how we as a Nation 
prepare for and respond to disasters. After shortcomings were 
identified in preparation for and in response to Hurricane 
Katrina, Congress enacted reforms in 2006 requiring FEMA to 
establish advance contracts for goods and services to enable 
the Government to quickly and effectively mobilize resources in 
the aftermath of a disaster and provide a preference to local 
businesses in the area affected by a major disaster. But as we 
will hear today from the DHS-OIG and the GAO, FEMA has yet to 
adequately implement all of the reforms, despite it being well 
over a decade since the law was passed.
    Having advance contracts in place before a disaster helps 
ensure the Federal Government has the adequate and appropriate 
resources to respond when a disaster strikes. Without these 
advance contracts, the Government risks taxpayers' money by 
spending more than is necessary for goods and services, or, 
worse, Americans in need might be left waiting as the Federal 
Government has to go out and award new contracts in the midst 
of a disaster.
    FEMA must do its due diligence to ensure that companies 
selected for advance contracts can meet the contract terms. The 
opportunity to be in on advance contracts must also truly be 
full and open, with equal consideration being given to small 
businesses, including minority-owned businesses.
    In 2017, when responding to the catastrophic Hurricanes 
Harvey, Irma, and Maria, FEMA had to cancel multiple contracts 
due to the agency's failure to weed out inexperienced or 
unqualified vendors. Some of the vendors had been barred from 
doing work with other agencies.
    While I know FEMA claims this did not affect their work on 
the ground in 2017, common sense tells us that emergency 
response is improved by having qualified vendors in place to 
provide goods and services reliably.
    FEMA has also made post-disaster awards to vendors outside 
the disaster area without adequate justification, meaning the 
agency may have missed opportunities to award contracts to 
local businesses, which could have helped jump-start disaster-
affected local communities.
    Moreover, FEMA must deal with staffing vacancies in the 
Office of Chief Procurement Officer, which, as of last summer, 
had over 70 vacant positions. FEMA must not only fill these 
vacancies, it also needs to ensure its staff is properly 
trained to conduct the duties assigned to them.
    We will talk about it a little later, because they have 
hired new people, they hired 13, I think, and 12 have already 
left. So it continues to be a problem.
    So let me just say that we want to get it right. FEMA is 
the last line of defense to help the American people. When all 
systems fail, FEMA should be there. Congress has been really 
good in supporting FEMA's mission. They will give them the 
resources; now we just need to get it right.
    So I hope from these reports, Mr. Chairman, that we get an 
opportunity to continue to work on improving FEMA's response.
    In light of that, I would also like to suggest that we hold 
a meeting to discuss contracts governed by section 428, or the 
Stafford Act, especially for Puerto Rico recovery. I have made 
a couple of visits to Puerto Rico, and it just seems like we 
should be further along than we are. I want to make sure, if 
there is something we are missing in this process to speed it 
up, that we fix it.
    With that, Mr. Chair, I yield back.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                              May 9, 2019
    Disaster contracting is a central component of disaster 
preparedness and an issue I have been following for some time now. 
Since Hurricane Katrina exposed gaps in FEMA's disaster contracting 
practices in 2005, the agency still has not managed to make the 
necessary adjustments that facilitate smoother response and recovery 
efforts and make FEMA a better steward of taxpayers' dollars. Moving 
into the 2019 hurricane season, I am concerned that FEMA will fall 
short in this area once again.
    To add to my worry, for the last 2 months, FEMA has not had a 
Senate-confirmed administrator. In the absence of permanent leadership, 
FEMA is likely to get even further behind with preparing its disaster 
contracting initiatives.
    Contracting is incredibly important to how we as a Nation prepare 
for and respond to disasters. After shortcomings were identified in 
preparation for and response to Hurricane Katrina, Congress enacted 
reforms in 2006 requiring FEMA to: Establish advance contracts for 
goods and services to enable the Government to quickly and effectively 
mobilize resources in the aftermath of a disaster; and provide a 
preference to local businesses in the area affected by a major 
disaster. But, as we will hear today from the DHS-OIG and the GAO, FEMA 
has yet to adequately implement all of the reforms, despite it being 
well over a decade since the law was passed.
    Having advance contracts in place before a disaster helps ensure 
the Federal Government has the appropriate resources to respond when a 
disaster strikes. Without these advance contracts, the Government risks 
taxpayer money by spending more than is necessary for goods and 
services. Or worse, Americans in need might be left waiting as the 
Federal Government has to go out and award new contracts in the midst 
of a disaster. FEMA must do its due diligence to ensure that companies 
selected for advance contracts can meet the contract terms. The 
opportunity to bid on advance contracts must also truly be ``full and 
open'' with equal consideration being given to small businesses, 
including minority-owned businesses.
    In 2017, when responding to the catastrophic hurricanes Harvey, 
Irma, and Maria, FEMA had to cancel multiple contracts due to the 
agency's failure to weed out inexperienced or unqualified vendors. Some 
of the vendors had been barred from doing work with other agencies. 
While I know FEMA claims this did not affect their work on the ground 
in 2017, common sense tells us that emergency response is improved by 
having qualified vendors in place to provide goods and services 
reliably. FEMA also made post-disaster awards to vendors outside the 
disaster area without adequate justification, meaning the agency may 
have missed opportunities to award contracts to local businesses, which 
could have helped jump-start disaster-affected local economies.
    Moreover, FEMA must deal with staffing vacancies in the Office of 
the Chief Procurement Officer, which as of last summer had over 70 open 
positions. FEMA must not only fill these positions. It also needs to 
ensure its staff is properly trained to conduct the duties assigned to 
them. According to information provided by FEMA, as of April 2019 only 
51 percent of the agency's acquisitions cadre was deemed qualified by 
FEMA's own qualification system. This is unacceptable and must change 
immediately. The American people expect FEMA and its Federal partners 
to support response and recovery in times of disaster. Learning from 
past disaster contracting mistakes and getting contracting right going 
forward is essential to that task.
    Today, I look forward to hearing from representatives of the 
Government Accountability Office and the Department of Homeland 
Security's Inspector General on the shortcomings and opportunities for 
improvement in FEMA procurement. I also look forward to hearing from 
FEMA on the steps the agency has taken to improve its process and work 
with both GAO and DHS OIG to address their outstanding recommendations.

    Mr. Payne. Thank you, Mr. Chairman.
    Other Members of the committee are reminded that, under the 
committee rules, opening statements may be submitted for the 
record.
    I would like to welcome our panel of witnesses.
    Our first witness, Mr. Brian Kamoie, who serves as 
associate administrator for mission support at FEMA. In this 
role, Mr. Kamoie oversees the Office of the Chief Procurement 
Officer, which is responsible for FEMA's contracting and 
acquisitions, and the Office of the Chief Component Human 
Capital Officer, which is responsible for personnel issues at 
the Agency.
    Prior to joining FEMA in 2013, he served as senior director 
for preparedness policy on the White House National Security 
Council and deputy assistant secretary for preparedness and 
response at the U.S. Department of Health and Human Services.
    Next, we have Ms. Marie Mak, who leads the Government 
Accountability Office's work on a wide range of issues 
involving acquisitions contracting at the Department of 
Homeland Security and the Department of Defense. Ms. Mak has 
nearly 20 years of service to GAO. She had previously worked at 
the Naval Air Systems Command and U.S. Coast Guard 
Headquarters.
    Am I pronouncing your name correctly?
    Ms. Mak. Yes.
    Mr. Payne. All right. I got one right today.
    Finally, we are joined by Ms. Katherine Trimble, deputy 
assistant inspector general for audits at the Department of 
Homeland Security Office of Inspector General, where she 
oversees disaster management and infrastructure protection 
issues.
    Prior to joining DHS-OIG in 2018, Ms. Trimble worked at GAO 
for 20 years. She has been responsible for multiple in-depth 
reviews of major DHS acquisitions and was also involved with 
GAO's assessment of Federal, State, and local responses to 
Hurricane Katrina.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Mr. Kamoie.

STATEMENT OF BRIAN KAMOIE, ASSOCIATE ADMINISTRATOR FOR MISSION 
 SUPPORT, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Kamoie. Good morning, Chairman Payne and Chairwoman 
Torres Small, Ranking Members King and Crenshaw, and Members of 
the subcommittee. My name is Brian Kamoie, and I am the 
associate administrator for mission support at FEMA.
    On behalf of Acting Administrator Gaynor, I appreciate the 
opportunity to talk with you today about the agency's disaster 
contracting program and its key role in achieving FEMA's 
mission to help people before, during, and after disasters.
    FEMA's Office of the Chief Procurement Officer manages the 
agency's contracting needs to handle day-to-day operations and 
support survivors throughout the disaster response and recovery 
process. FEMA's procurement team negotiates high-quality, cost-
effective, and timely contracts to accomplish FEMA's mission. 
Since 2016, FEMA has executed more than 32,000 contract 
actions, resulting in over $10.5 billion in contract 
obligation.
    FEMA adheres to and assesses contractors according to the 
Federal Acquisition Regulations. As part of the acquisition 
process, contracting officers evaluate proposals and vet 
potential contractors, including obtaining past performance 
information.
    During declared disasters, the Federal Acquisition 
Regulations and Department of Homeland Security policy give 
FEMA specific authorities and flexibilities to expedite 
contracting actions so that our agency and our partners can 
obtain resources quickly to help survivors. These authorities, 
such as the ``unusual and compelling urgency'' exception in the 
Federal Acquisition Regulations, help streamline procurement 
timelines while adhering to applicable Federal and Agency 
procedures.
    Each year, FEMA enters into prepositioned contracts in 
advance of disasters to enable the agency to meet immediate 
response needs before additional longer-term contracts are put 
into place. Prepositioned contracts provide a variety of 
services and commodities, ranging from crisis counseling and 
housing inspection services to the delivery of critical 
commodities like generators, water, and meals. As of April 
2019, FEMA has 87 prepositioned contracts, 23 of which are to 
small businesses.
    Following a disaster, FEMA's goal is to contract with local 
companies within a declared disaster area for resource needs 
when practicable. Locally-sourced contracts stimulate the local 
economy, create job opportunities, and support long-term 
recovery for affected communities. Since 2017, of the more than 
$6.9 billion obligated in support of disasters, locally-sourced 
contracts made up more than $842 million, representing 12.2 
percent of total disaster dollars obligated.
    Additionally, FEMA has an industry liaison program which 
establishes strategic relationships with vendors and 
stakeholders, serves as an information provider for vendors 
seeking to do business with FEMA, and connects vendors with 
program offices in support of FEMA's mission. The program's 
goal is to support the availability of the right resources and 
services at the right time to local and State governments and 
disaster survivors.
    During the historic 2017 hurricane season, FEMA executed 
more than 3,500 disaster-related contract actions, for a total 
obligation of $2.6 billion. In addition, the agency executed 
more than $1 billion in non-disaster contracts. This is more 
than a 100 percent increase in FEMA's annual expenditures and a 
50 percent increase in the number of contracting actions from 
the prior year.
    Based on lessons learned from the 2017 hurricane season as 
well as recommendations from the Government Accountability 
Office and the Department's Office of Inspector General, FEMA 
has made improvements in our contracting process. These 
include: Increasing the dollar ceiling on prepositioned 
contracts; adjusting periods of performance on contracts so 
that none expire during hurricane season; awarding 
prepositioned contracts to enhance transportation capabilities 
for island responses; and increasing the number of contracting 
personnel supporting disasters, specifically senior-level and 
disaster acquisition staff.
    FEMA also introduced the Master Acquisition Planning System 
in 2016, a tool that results in acquisitions that are more 
cost-effective and best meet FEMA's needs through preplanning 
of resources.
    As part of our on-going outreach and education, FEMA's 
Procurement Disaster Assistance Team provides training to our 
partners to familiarize them with Federal procurement standards 
applicable to FEMA's public assistance disaster grants. These 
teams deploy to disaster locations to provide our partners 
training where they need it when they need it.
    FEMA is also in the process of developing a procurement 
toolkit that will help our partners develop their own 
prepositioned contracts.
    I am pleased to be here today to represent the dedicated 
FEMA staff and for the opportunity to discuss with you our 
important mission to help people before, during, and after 
disasters. I am happy to take any questions the committee may 
have.
    Thank you.
    [The prepared statement of Mr. Kamoie follows:]
                   Prepared Statement of Brian Kamoie
                              May 9, 2019
                              introduction
    Good morning, Chairman Payne and Chairwoman Torres Small, Ranking 
Members King and Crenshaw, and Members of the subcommittees. My name is 
Brian Kamoie, and I am the associate administrator for mission support 
at the Federal Emergency Management Agency (FEMA). On behalf of FEMA 
Acting Administrator Peter Gaynor, I appreciate the opportunity to 
speak with you today about the agency's disaster contracting program 
and its key role in achieving FEMA's mission to help people before, 
during, and after disasters.
                office of the chief procurement officer
    FEMA's Office of the Chief Procurement Officer (OCPO) manages the 
agency's contracting needs. OCPO negotiates high-quality, cost-
effective, and timely contracts to improve the delivery of FEMA's 
mission. Since 2016, FEMA has executed 32,716 contract actions, 
resulting in over $10.5 billion in contract obligations.
    Whether before, during, or after a disaster, we adhere strictly to, 
and assess contractors in accordance with, the Federal Acquisition 
Regulations (FAR). As part of the acquisition process, contracting 
officers evaluate proposals based on the award criteria set forth in 
the solicitation and a series of factors required by Federal 
regulations, along with vetting potential contractors. Contracting 
officers obtain performance information about potential contractors 
from the Federal Awardee Performance and Integrity Information System, 
which is the Government-wide system used to collect contractor and 
grantee integrity information.
                        contracting in disasters
    In times of Presidentially-declared disasters, the FAR and the U.S. 
Department of Homeland Security (DHS) provide FEMA with specific 
authorities and flexibility to expedite contracting actions so that our 
agency and our partners can obtain resources and services quickly to 
help disaster survivors. These authorities allow for streamlined 
procurements and increased contract dollar thresholds while adhering to 
applicable procedures outlined in Federal and agency regulations. 
Contracts can range from providing commodities, such as meals and 
water, to temporary housing and disaster case management.
    Under the FAR (48 CFR  6.302-2), unusual and compelling urgency 
can be used to justify using options other than full and open 
competition, though contracts awarded under these circumstances are 
limited in duration to less than 150 days. FEMA may also issue rated 
orders under the Defense Production Act, use preliminary contractual 
instruments, such as letter contracts authorizing the contractor to 
manufacture supplies or perform services immediately, or award sole-
source contracts to specific subsets of small businesses.
    Our disaster contracting can also include the use of pre-positioned 
Indefinite Delivery Indefinite Quantity (IDIQ) contracts, DHS 
strategically-sourced contracts, General Services Administration 
schedules, and other mechanisms to simplify and expedite procurement 
activities.
    Above all, FEMA's pre-negotiated and disaster contracts are tools 
to help the agency provide the resources and services necessary to help 
survivors during and after disasters.
                        pre-positioned contracts
    Each year, we enter into pre-positioned contracts to enable the 
agency to meet immediate disaster response needs before additional 
longer-term contracts are put into place. Pre-positioned contracts 
provide a variety of services, including technical assistance for our 
individual and public assistance programs, lodging, crisis counseling, 
housing inspection, and air transportation services. We also have pre-
positioned contracts in place for critical commodities like generators, 
water, meals, cots, and infant and toddler kits. These commodity 
contracts are in addition to the inventory kept on hand in 
strategically-placed warehouses across the country for immediate use.
    As of April 2019, FEMA has 87 pre-positioned contracts, 23 of which 
were awarded to small businesses. We have executed and/or modified 
existing contracts to account for increased dollar ceilings, 
appropriate performance periods, and geographic coverage. FEMA has also 
reviewed all pre-positioned contracts to make sure that none will 
expire during the hurricane season, including adjusting the periods of 
performance where necessary.
                       locally-sourced contracts
    Following a Presidentially-declared disaster, as required in 
Section 307 the Robert T. Stafford Disaster Relief and Emergency 
Assistance Act, as amended, FEMA's goal is to seek local companies 
within a declared disaster area to meet the needs for that disaster 
response. Locally-sourced contracts stimulate the local economy, create 
job opportunities, and support long-term viability and recovery for 
communities affected by a disaster. Since 2017, of the more than $6.9 
billion obligated for contracts awarded in support of disasters, 
locally-sourced contracts made up more than $842 million, representing 
12.2 percent of total disaster dollars obligated.
    To reach local companies, we can give contract preferences through 
a local area set-aside solicitation to allow only local firms within a 
specific geographic area to compete, or FEMA can give local firms 
preference in the evaluation of proposals. If a local preference is not 
a viable option at the onset of a disaster, such as when no local 
businesses can provide a needed resource or local companies temporarily 
lack the capability after a disaster, the Stafford Act mandates the 
transition of disaster requirements at the earliest opportunity from 
non-local vendors, where feasible and practicable, to organizations, 
firms, and individuals residing or doing business primarily in the 
area(s) affected by a major disaster or emergency.
                     small business considerations
    While there is no regulatory requirement for small business 
participation in disaster contracting, FEMA creates an environment that 
stimulates maximum participation for small businesses in Federal 
Government contract awards for companies that are disadvantaged or 
owned by women or veterans. FEMA participates in small business 
conferences to promote these opportunities.
    In response to Section 307 of the Stafford Act, FEMA established 
Local Business Transition Teams. We deploy these teams to help with the 
transition of contracts to the local economy, co-locating a team with 
local, State, and Federal disaster leadership, private-sector liaisons, 
and most importantly, the local businesses that could provide support 
to their communities. These teams facilitate the transition of disaster 
requirements by assisting the FEMA Joint Field Office (JFO) acquisition 
staff with identifying requirements, assessing transition feasibility, 
and creating acquisition packages for contract award. These teams also 
educate local vendors through procurement education seminars to foster 
successful business participation during recovery efforts.
    By encouraging local procurement wherever feasible, the Local 
Business Transition Team assists in the restoration of local economies, 
employment opportunities, tax bases, and ultimately, the recovery of 
affected communities.
                        industry liaison program
    FEMA's Industry Liaison Program (ILP) establishes strategic 
relationships with suppliers and stakeholders, serves as an information 
provider for suppliers seeking to do business with FEMA, and connects 
suppliers with program offices in support of our mission. The program's 
goal is to support the availability of the right resources and 
services, at the right time, to local and State governments and 
disaster survivors.
    The program achieves this mission by coordinating vendor 
presentations and industry days, conducting market research, and 
performing vendor analysis reporting at FEMA Headquarters. Industry 
liaisons also coordinate the flow of vendor inquiries across FEMA 
Headquarters, Regions, and JFOs.
    In the aftermath of Hurricanes Irma and Maria, ILP staff 
participated in North Miami's Minority Enterprise Development Week 
(MEDWeek) Government & Commercial Contracting Panel in Florida. More 
than 125 vendors attended, mostly consisting of minority businesses, as 
well as State and local officials. Additionally, ILP participated in, 
and helped to facilitate, outreach events in Puerto Rico. Our staff 
spoke to over 700 vendors about FEMA's procurement needs and doing 
business with the agency. These events were held across Puerto Rico 
during February and March 2018. ILP also participated in the Federal 
Business Opportunity Conference, held in Puerto Rico in December 2018. 
The objective of this conference was to foster business relationships 
between the Government and local businesses. ILP provides continual 
support to internal partners and vendors seeking to do business with 
FEMA. Since October 1, 2017, ILP has processed more than 5,000 email 
and 1,900 phone inquiries.
            5-year master acquisition planning system (maps)
    Since 2016, we have used the Master Acquisition Planning System 
(MAPS) for all mission-critical acquisitions and acquisitions that are 
more than $5 million. FEMA's senior leadership recognized the need for 
a tool to track major and mission-critical acquisitions, including pre-
positioned contracts. This system is designed to alert the procurement 
organization and program office leadership of upcoming acquisitions. 
This allows for adequate planning of resources and personnel for the 
project, resulting in acquisitions that are more cost-effective and 
best meet FEMA's needs. It also reduces the need for bridge or non-
competitive contract awards. MAPS uses a time estimator to plan dates 
for awards of major and mission-critical contracts. Since its 
deployment, MAPS has helped FEMA improve acquisition planning, which 
ultimately increases the use of competitive acquisition procedures, 
leading to more competitive pricing.
          continuous improvement of fema disaster contracting
    During the historic 2017 hurricane and wildfire seasons, FEMA 
executed more than 3,500 disaster-related contract actions, for a total 
obligation of $2.6 billion. In addition, the agency executed more than 
$1 billion in non-disaster contracts. This is more than a 100 percent 
increase in our annual expenditures and a 50 percent increase in the 
number of contracting actions from the prior year.
    Based on internal lessons learned, as well as recommendations from 
our partners at the U.S. Government Accountability Office and DHS's 
Office of Inspector General, FEMA has improved our contracting 
processes. The improvements include:
  <bullet> Increasing the Dollar Ceiling on some pre-positioned 
        contracts (such as water, meals, and infant toddler kits) to 
        increase capacity and help facilitate the process of getting 
        goods/services to disaster survivors more expeditiously while 
        complying with regulations.
  <bullet> Adjusting Periods of Performance on pre-positioned contracts 
        to make sure they do not expire in the middle of hurricane 
        season.
  <bullet> Enhancing the Transportation Capabilities for Island 
        Responses by working to solicit additional shipping and air 
        transportation services across the Pacific and Alaska. This 
        includes awarding a contract in March 2019 that will provide a 
        full suite of shipping and cross-docking services for Puerto 
        Rico and the U.S. Virgin Islands.
  <bullet> Increasing the Number of Contracting Personnel to Support 
        Disasters by instituting a robust rotation of contracting 
        personnel in the National Response Coordination Center to 
        respond to disaster incidents, improving the agency's ability 
        to acquire commodities in support of disasters quickly.
    <bullet> Increasing the Number of Disaster Acquisition Response 
            Team Staff to increase the availability of acquisition 
            personnel to support field activities and JFOs. FEMA also 
            entered into a contract for acquisition support, providing 
            additional acquisitions capability for the upcoming 
            hurricane season. We will continue to add personnel who 
            promote sound business decision making in support of 
            disaster survivors.
    <bullet> Increasing the Number of Senior-Level Acquisition 
            Personnel in the quality review process.
    <bullet> Filling Critical Vacancies to replace departing employees 
            to make sure sufficient acquisition capabilities remain in 
            place to meet the needs of the agency.
    In addition to implementing lessons learned, we continue to provide 
training to acquisition personnel to deliver high-quality contracting 
to disasters, with an emphasis on past performance. FEMA conducts 
disaster contracting webinars with a continually-evolving curriculum to 
incorporate lessons learned and past performance, share information, 
and improve the process.
    We also have a Procurement Disaster Assistance Team to provide 
necessary contracting outreach and education. The purpose of this team, 
in part, is to provide training to State, local, Tribal, and 
territorial partners to ensure they are familiar with the Federal 
procurement standards applicable to FEMA's public assistance disaster 
grants. Additionally, we are developing a procurement toolkit that will 
facilitate our partners' ability to develop their own pre-positioned 
contracts to facilitate their response to events, which allows for the 
community and its economy to recover more quickly.
    Last, FEMA will continue to transition from pre-positioned 
contracts to the use of locally-sourced contracts as soon as is 
practicable during disaster response and recovery.
                               conclusion
    Every day, I am grateful for the opportunity to work with a program 
dedicated to supporting FEMA's mission to help people before, during, 
and after disasters. Thank you for your interest in the program and 
your support. We look forward to collaborating with your subcommittees 
moving forward. I am happy to answer any questions you may have at this 
time.

    Mr. Payne. Thank you, sir.
    I now recognize Ms. Mak to summarize her statement for 5 
minutes.

    STATEMENT OF MARIE A. MAK, DIRECTOR FOR CONTRACTING AND 
   NATIONAL SECURITY ACQUISITIONS, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Mak. Good morning, Chairman Payne and Chairwoman Torres 
Small, Ranking Members King and Crenshaw, and distinguished 
Members of the subcommittees.
    Thank you for inviting me here today to discuss Federal 
contracting efforts in response to the 2017 hurricanes and 
wildfires. These efforts are critical, given that contracts 
play a key role in the immediate disaster response and longer-
term community recovery. Also, effective planning and 
maximizing the use of contracts following a disaster can help 
FEMA to quickly and cost-effectively provide needed goods and 
services to survivors.
    Our most recent reports on advance and post-disaster 
contracting indicate that FEMA continues to face several key 
challenges. The three areas that I would like to highlight 
today are contracting work force issues, coordination, and 
transparency.
    First, in our reviews on disaster response, work force has 
come up as a theme.
    Specific to contracting, FEMA leveraged contracting staff 
from its regions, headquarters, and its deployable contracting 
work force to support disaster response. Yet we found that 8 
out of FEMA's 10 regional offices had only 1 permanent full-
time contracting official.
    Given that regional offices are responsible for managing 
most post-disaster contracts as well as coordinating with 
States and localities on the use of these advance contracts, 
not having enough contracting personnel becomes significant 
after a disaster hits.
    Recognizing this challenge, in the short term, FEMA plans 
to fill some of these gaps using contractor support and to hire 
some additional staff dedicated to disaster response. However, 
without assessing its current contracting work force to 
determine what mission and skill gaps really exist, it will be 
difficult for FEMA to fill the contracting positions with the 
specific skills it needs to better respond to future disasters.
    Second, in our review of advance contracts, those that are 
put in place prior to disasters so that they can be expedited 
in getting critical goods and services to the survivors, we 
found improvements could be made in Federal coordination and 
information sharing with State and local governments. For 
example, we found inconsistencies with FEMA's efforts to 
perform regular outreach with States to help them in 
establishing their own advance contracts, since they are really 
the first responders after a disaster hits.
    It is also important that States and localities as well as 
FEMA's own work force are aware of what Federal advance 
contracts exist and how they can be leveraged. In this case, we 
found that FEMA's documentation listing advance contracts did 
not consistently identify contracts for life-sustaining goods 
such as generators, meals, manufactured housing units. As a 
result, FEMA contracting personnel and their State and local 
counterparts may not be well-informed about the types of goods 
and services that are available.
    Recognizing these challenges, FEMA is developing a toolkit 
to share information on advance contracts, but at the time of 
our review, it was still deciding what information to include.
    Finally, there is a lack of transparency regarding full 
extent of disaster contracting obligations. This is due to the 
criteria for closing a National interest action code in the 
Federal Procurement Database System. It is the only public, 
Government-wide database that is used for tracking Federal 
procurements. This code is what contracting personnel select 
when entering related contract information into the system.
    The closing of the codes for both Harvey and Irma less than 
a year after the storms made landfall make it significantly 
more difficult to determine the extent of Federal contracting 
obligations. In contrast, codes for prior hurricanes were open 
for at least 5 years, with the Katrina code remaining open for 
13 years.
    Without reevaluating the criteria to close these codes, the 
ability to identify and track Federal contracting dollars for 
disasters is not comprehensive and provides limited visibility 
to all interested stakeholders, including Congress.
    Chairman Payne and Chairwoman Torres Small, Ranking Members 
King and Crenshaw, Members of the subcommittees, this completes 
my statement. I would be prepared to respond to any questions 
that you may have.
    Thank you.
    [The prepared statement of Ms. Mak follows:]
                   Prepared Statement of Marie A. Mak
                              May 9, 2019
                             gao highlights
    Highlights of GAO-19-518T, a testimony before the Subcommittees on 
Emergency Preparedness, Response, and Recovery and Oversight, 
Management, and Accountability, Committee on Homeland Security, House 
of Representatives.
Why GAO Did This Study
    According to FEMA--a component within DHS--the 2017 disasters 
affected 47 million people, or about 15 percent of the Nation's 
population. Federal contracts have played a key role in responding to 
these disasters and in long-term community recovery. So far, FEMA has 
obligated billions of dollars on these contracts.
    This testimony is based primarily on GAO's recent reports on 
disaster contracting--specifically advance contracting and post-
disaster contracts related to the 2017 disasters--which detail much of 
FEMA's disaster contracting activities. It addresses key challenges 
FEMA faced contracting for goods and services in response to these 
disasters.
    To conduct this work, GAO analyzed data from the Federal 
Procurement Data System-Next Generation through June 30, 2018, the 
latest and most complete data available for the 2017 disasters. GAO 
also analyzed FEMA guidance and documentation and interviewed FEMA 
officials to discuss the use of contracts to respond to the 2017 
disasters.
What GAO Recommends
    GAO has made a total of 19 recommendations--most of which were to 
FEMA--related to contracting activities in response to the 2017 
disasters. Ten of these are described in this statement. DHS concurred 
with most of these recommendations, and has some actions under way, but 
it has not fully implemented them. Attention to these recommendations 
can assist FEMA as it uses contracts to respond to future disasters.
 disaster contracting.--fema continues to face challenges with its use 
 of contracts to support response and recovery, director, contracting 
                   and national security acquisitions
What GAO Found
    Following Hurricanes Harvey, Irma, and Maria, and the 2017 
California wildfires, Federal agencies entered into disaster-related 
contracts worth about $9.5 billion, according to data as of June 30, 
2018--the latest and most complete data at the time of GAO's review 
(see figure). The Federal Emergency Management Agency (FEMA) obligated 
about $2.9 billion of this total through advance contracts, which it 
establishes prior to a disaster to rapidly mobilize resources. FEMA 
obligated an additional $1.6 billion through post-disaster contracts, 
which are established after disasters hit.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In its December 2018 and April 2019 reports, GAO made 10 
recommendations to strengthen FEMA's ability to address challenges GAO 
identified in how FEMA plans, coordinates, and tracks its contracts:
    Planning.--FEMA has an outdated strategy and unclear guidance on 
        how contracting officers should use advance contracts and has 
        not fully assessed its contracting work force needs. 
        Effectively planning its contract use is critical to FEMA 
        quickly providing critical goods and services.
    Coordination.--FEMA did not fully coordinate with States and 
        localities on certain contracts and encountered communication 
        and coordination challenges with other Federal agencies. 
        Effective coordination helps FEMA ensure stakeholders have the 
        tools needed to facilitate their disaster response efforts.
    Tracking.--The full extent of 2017 disaster contracting activities, 
        for FEMA and other agencies, is unknown. GAO found that codes 
        used to track obligations for these disasters in a Federal 
        procurement data system were closed without full consideration 
        of user needs or due to inconsistent implementation of criteria 
        established by the Department of Homeland Security (DHS) and 
        other agencies, limiting visibility over Federal disaster 
        contracts.
    Chairman Payne, Chairwoman Torres Small, Ranking Members King and 
Crenshaw, and Members of the subcommittees: I am pleased to be here 
today to discuss the Federal Emergency Management Agency's (FEMA) 
contracting practices in response to the catastrophic 2017 disasters--
Hurricanes Harvey, Irma, and Maria, and the California wildfires. 
According to FEMA--a component within the Department of Homeland 
Security (DHS)--these disasters affected 47 million people, or about 15 
percent of the Nation's population. Once a major disaster has been 
declared by the President, Federal contracts play a key role in its 
immediate aftermath and in long-term community recovery by providing 
life-sustaining goods and services to survivors. FEMA has obligated 
billions of dollars on contracts in response to the 2017 disasters.
    The Post-Katrina Emergency Management Reform Act (PKEMRA) of 2006 
required FEMA, among other things, to establish advance contracts. 
Advance contracts are established prior to disasters to quickly provide 
life-sustaining goods and services in the immediate aftermath of a 
disaster.\1\ FEMA may also award new contracts to support disaster 
response efforts following a disaster declaration. According to FEMA 
officials, these post-disaster contract awards may be required, for 
example, if advance contracts reach their capacity, or if goods and 
services that are not suitable for advance contracts are needed. 
According to our analysis of Federal Procurement Data System-Next 
Generation (FPDS-NG) data, Federal agencies had obligated about $9.5 
billion in response to the 3 2017 hurricanes and the California 
wildfires as of June 30, 2018--the most recent and complete data 
available.\2\ FEMA obligated about $2.9 billion of this total through 
advance contracts, and roughly an additional $1.6 billion through post-
disaster contracts.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 109-295,  601-699. PKEMRA included several 
provisions, notably the requirement for FEMA to identify requirements 
that can be contracted for in advance and establish advance contracts. 
Among other provisions, PKEMRA also required FEMA to develop a 
contracting strategy that maximizes the use of advance contracts to the 
extent practical and cost-effective; establish a process to ensure 
coordination of advance contracts with State and local governments, as 
appropriate; and encourage State and local governments to engage in 
similar pre-planning and contracting.
    \2\ Advance contract obligations included in this analysis were 
limited to FEMA and U.S. Army Corps of Engineers (USACE) contracts. 
Obligations for the California wildfires were limited to contracts 
identified by FEMA and USACE.
---------------------------------------------------------------------------
    My statement today addresses key challenges FEMA faced contracting 
for goods and services in response to these disasters. This statement 
is primarily based on reports we issued in December 2018 and April 2019 
on FEMA's disaster-contracting activities in response to the 2017 
hurricanes and California wildfires.\3\ For the reports cited, among 
other methodologies, we reviewed FPDS-NG data through June 30, 2018--
the most recent and complete data available--to identify FEMA contract 
obligations for the 2017 disasters. We also analyzed FEMA guidance and 
documentation and interviewed FEMA officials to discuss the use of 
contracts to respond to the 2017 disasters. Each of the reports cited 
in this statement provide further detailed information on our scope and 
methodology.
---------------------------------------------------------------------------
    \3\ GAO, 2017 Disaster Contracting: Actions Needed to Improve the 
Use of Post-Disaster Contracts to Support Response and Recovery, GAO-
19-281 (Washington, DC: Apr. 24, 2019); and 2017 Disaster Contracting: 
Action Needed to Better Ensure More Effective Use and Management of 
Advance Contracts, GAO-19-93 (Washington, DC: Dec. 6, 2018).
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate, evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe the 
evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
      fema experienced challenges in planning, coordinating with 
            stakeholders, and tracking the use of contracts
Challenges in Acquisition and Workforce Planning
    Ensuring that there is adequate time to complete acquisition 
planning activities and identifying the contracting work force required 
to execute mission needs can help agencies establish a strong 
foundation for successful acquisition outcomes. However, our prior work 
identified challenges FEMA faced in its acquisition and work force 
planning efforts for disaster contracting. The Federal Acquisition 
Regulation (FAR) requires agencies to perform acquisition planning 
activities for all acquisitions to ensure that the Government meets its 
needs in the most effective, economical, and timely manner possible.\4\ 
In our December 2018 report, we found that FEMA had guidance in place 
establishing time frames for certain FEMA acquisitions following the 
completion of the acquisition package.\5\ Further, FEMA implemented an 
acquisition tracking tool in 2016--the 5-Year Master Acquisition 
Planning Schedule (MAPS)--which monitors the status of and provides 
acquisition planning time frames for certain high-value and mission-
critical acquisitions, including advance contracts, regardless of 
dollar value.
---------------------------------------------------------------------------
    \4\ FAR  7.102.
    \5\ GAO-19-93.
---------------------------------------------------------------------------
    However, we found that FEMA had not established time frames or 
released guidance for the pre-solicitation phase of the acquisition 
planning process, when program officials identify a need and develop 
key acquisition package documents (see figure 1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Not adhering to suggested time frames can place a burden on 
contracting officers and increase the likelihood of not awarding a 
contract on schedule. This, in turn, may create a need for FEMA to non-
competitively extend the existing contract--this extension may be 
considered a bridge contract. Given the lack of a Government-wide 
definition, we defined bridge contracts in our prior work as: 
Extensions to an existing contract beyond its period of performance 
(including base and options) and new, short-term contracts awarded on a 
sole-source basis to an incumbent contractor to avoid a lapse in 
service caused by a delay in awarding a follow-on contract.\6\ FEMA 
officials acknowledged that the use of non-competitive bridge contracts 
is not an ideal practice as they cannot ensure the Government is paying 
what it should for goods and services. However, in December 2018, we 
found that FEMA used bridge contracts for at least 10 of its advance 
contracts used in response to the 2017 disasters--with some of these 
contracts lasting for several years.
---------------------------------------------------------------------------
    \6\ The FAR does not define bridge contracts or require that they 
be tracked.
---------------------------------------------------------------------------
    To decrease dependence on bridge contracts, FEMA established MAPS 
to help track and monitor the status of acquisition planning time 
frames for certain acquisitions. However, most of the program office 
and contracting officials we spoke with during our December 2018 review 
had limited familiarity with the tool. In our December 2018 report, we 
recommended that FEMA update and implement existing guidance to 
identify acquisition planning time frames and considerations across the 
entire acquisition planning process and clearly communicate the purpose 
and use of its acquisition planning tool to relevant personnel. DHS 
concurred, but in its response to our report stated it believed 
existing outreach and training on MAPS had resolved these challenges. 
We acknowledged FEMA's training in our report, but noted that not all 
relevant staff we spoke with were familiar with MAPS, and that there 
was no formal guidance on the time frames for the entirety of the 
acquisition planning process. Given these issues, we continue to 
believe FEMA needs to take additional steps to implement our 
recommendation.
    Without planning and guidance on its use of advance contracts, FEMA 
lacks reasonable assurance that it is maximizing their use to the 
extent practicable and cost-effective to quickly provide goods and 
services following a disaster. PKEMRA requires the FEMA administrator 
to develop a contracting strategy that maximizes the use of advance 
contracts to the extent practical and cost-effective, and FEMA 
contracting officials told us that advance contracts should be used 
before awarding new contracts. However, in December 2018, we found that 
FEMA's advance contract strategy and guidance did not clearly identify 
the objectives of advance contracts or whether and how they should be 
prioritized for use in relation to new post-disaster contracts.
    For example, we reported that FEMA's lack of an updated strategy 
and guidance contributed to confusion and challenges with the use of 
advance contracts for tarps, used to cover small areas of roof damage. 
Although FEMA had awarded advance contracts to provide tarps, a 
subsequent modification to these contracts limited the ability to use 
them for immediate disaster response needs--one of FEMA's stated 
purposes. Furthermore, we found that FEMA awarded vendors new post-
disaster contracts for tarps before using its existing advance 
contracts. According to FEMA officials at that time, neither of the 
post-disaster contract vendors was able to provide the required tarps 
when needed.\7\ We concluded that the timing and use of the existing 
tarp advance contracts raised questions about the ability of 
contracting officers to use these contracts to provide tarps 
immediately following disasters. Additionally, we concluded that an 
updated advance contracting strategy could have enabled FEMA to more 
quickly provide the needed tarps to survivors, considering the 
additional time and staff resources needed to award new post-disaster 
contracts.
---------------------------------------------------------------------------
    \7\ The first post-disaster contract was terminated for convenience 
citing shortages in available tarps following the 2017 hurricane 
season. A stop-work order was issued for the second post-disaster 
contract following concerns over whether the tarps received met FEMA's 
specifications.
---------------------------------------------------------------------------
    In our December 2018 report, we recommended that FEMA update its 
strategy to clearly define the objectives of advance contracts, how 
they contribute to FEMA's disaster response operations, and whether and 
how they should be prioritized in relation to making new, post-disaster 
contract awards. We also recommended FEMA update its guidance 
accordingly. DHS concurred with these two recommendations and 
identified actions it plans to take to address them.
    Our prior work also showed that FEMA's ability to adequately plan 
for and manage its disaster contracts is further complicated by 
persistent acquisition work force challenges, including attrition and 
staffing shortages. In April 2019, we found that FEMA had identified 
work force shortages as a continuing challenge for disaster response 
and recovery. But FEMA had not assessed its contracting work force--
including regional contracting work force needs--since at least 
2014.\8\ We recommended FEMA assess its work force needs to address 
these shortcomings and develop a plan, including time lines. DHS 
agreed, identified steps FEMA has taken and plans to take to address 
the recommendation, and estimated addressing the recommendation by 
September 2019.
---------------------------------------------------------------------------
    \8\ GAO-19-281.
---------------------------------------------------------------------------
Continued Challenges Coordinating with Federal, State, and Local 
        Partners on Contracting Issues
    Our prior reports found that FEMA experienced challenges 
coordinating with State, local, and Federal partners over disaster 
preparation and response efforts. Coordination is critical to ensuring 
that States and localities have their own tools in place to facilitate 
disaster response, and that contracting needs are clearly communicated 
and considered among Federal agencies. Yet FEMA faced continued 
challenges and inconsistencies in its coordination with States and 
localities over the use of advance contracts.
    In January 2017, FEMA updated guidance to include requirements for 
coordination with State and local governments on the use of Federal 
advance contracts. This update was in response to our September 2015 
finding that there were inconsistencies in whether and how staff in 
FEMA's regional offices performed State and local outreach on advance 
contracting efforts.\9\ However, in December 2018, we reported on 
similar inconsistencies in State and local outreach.\10\ We found that 
FEMA's guidance did not specify how often or what types of advance 
contract information should be shared with States and localities, or 
instruct FEMA contracting officers to encourage States and localities 
to establish their own advance contracts for the types of goods and 
services needed during a disaster. As a result, we found that while 
some FEMA regional officials regularly performed outreach with States 
and localities to assist them with establishing advance contracts for 
goods and services commonly needed during a disaster--like security, 
transportation, and office supplies--other FEMA regional officials did 
so less frequently. According to regional officials, coordinating more 
frequently with States and localities allows them to avoid overlap 
between State and Federal contracting efforts, and helps FEMA officials 
know what resources the States have in place before a disaster occurs 
and how long States are capable of providing those resources following 
a disaster. We recommended in our December 2018 report that FEMA update 
its guidance to provide specific direction for contracting officers to 
perform outreach to States and localities on the use and establishment 
of advance contracts. DHS concurred and stated it would update guidance 
and continue efforts to establish resources for State and local 
governments on advance contracts.
---------------------------------------------------------------------------
    \9\ GAO-15-783.
    \10\ GAO-19-93.
---------------------------------------------------------------------------
    Information on FEMA's advance contracts can be used to facilitate 
State and local coordination over the use and establishment of advance 
contracts. However, our work showed that this information was 
inconsistent and could further hinder FEMA's information sharing and 
coordination efforts. In December 2018, we reviewed FEMA's advance 
contract list and other resources FEMA contracting officials said they 
used to identify advance contracts--like biannual training 
documentation--and found differences in the advance contracts 
identified.\11\ For example, we reported that FEMA officials told us 
that the advance contract list available to contracting officers is 
updated on a monthly basis. However, our analysis found that 58 advance 
contracts identified on the June 2018 advance contract list had not 
been included in contracting officers' May 2018 training documentation. 
The missing contracts included those for telecommunications services, 
generators, and manufactured housing units.
---------------------------------------------------------------------------
    \11\ GAO-19-93.
---------------------------------------------------------------------------
    Recognizing some of the shortcomings in communicating with State 
and local governments following the 2017 disasters, FEMA stated it 
would develop a toolkit to provide States and localities with 
recommendations for advance contracts, emergency acquisition guidance, 
and solicitation templates. However, at the time of our December 2018 
review, FEMA officials were uncertain what information they would share 
with States and localities on advance contracts, and said they did not 
plan to provide the complete list of the advance contracts FEMA has in 
place to avoid being overly prescriptive. Yet without a centralized and 
up-to-date resource on advance contracts, FEMA contracting officers and 
their State and local counterparts may not be able to effectively 
communicate about advance contracts and use them to respond to future 
disasters. Given FEMA's recent emphasis on the importance of States and 
localities having the capability to provide their own life-saving goods 
and services in the immediate aftermath of a disaster, we concluded 
that clearly communicating consistent and up-to-date information on the 
availability and limitations of Federal advance contracts is imperative 
to informing State and local disaster response efforts.
    In our December 2018 report, we recommended that FEMA identify a 
single centralized resource listing its advance contracts and ensure 
that resource is updated regularly. Further, we recommended that FEMA 
should communicate information on advance contracts using that resource 
to States and localities to inform their advance contracting efforts. 
DHS concurred with these two recommendations and identified some steps 
it planned to take, but also stated it believes the existing advance 
contract list satisfies our recommendation for a single centralized 
resource. However, as our report noted, we found inconsistencies in 
this list that FEMA needs to address for advance contract information 
to be complete and up-to-date for the contracting officers who rely on 
it.
    In addition to challenges coordinating with State and local 
governments, we identified coordination and planning concerns between 
FEMA and other Federal agencies. As the Federal disaster coordinator, 
FEMA obtains requirements from States and localities.\12\ It then tasks 
the appropriate Federal agencies with specific missions, based on their 
emergency support functions. Agencies assigned to specific missions are 
then responsible for fulfilling requirements, and may use contracts to 
do so. However, we reported in April 2019 that some Federal agencies 
experienced challenges coordinating with FEMA and State and local 
partners.\13\ For example, USACE officials reported that, during their 
debris removal mission following the California wildfires, local 
officials believed that the soil removed would be replaced. However, 
this was not part of the mission assignment from USACE to FEMA. In 
these instances, agency officials told us they relied on FEMA to 
communicate information on their mission assignments to be able to 
administer contracts.
---------------------------------------------------------------------------
    \12\ According to the National Response Framework--a guide to how 
the Federal Government, States and localities, and other public and 
private-sector institutions should respond to disasters and 
emergencies--the Secretary of Homeland Security is responsible for 
ensuring that Federal preparedness actions are coordinated to prevent 
gaps in the Federal Government's efforts to respond to all major 
disasters, among other emergencies. The framework also designates FEMA 
as the lead agency to coordinate the Federal disaster response efforts 
across 30 Federal agencies.
    \13\ GAO-19-281.
---------------------------------------------------------------------------
    According to a FEMA official during our April 2019 review, 
coordination and planning concerns related to mission assignments--like 
contracting considerations--should be worked out in advance between 
FEMA and agencies such as USACE. However, we found that FEMA policy and 
guidance lack details on how that coordination should take place. 
Further, a FEMA official told us that contracting considerations are 
not necessarily built into mission assignments. We recommended in April 
2019 that FEMA revise its mission assignment policy and guidance to 
better incorporate consideration of contracting needs and ensure clear 
communication of coordination responsibilities related to contracting. 
DHS concurred and plans to develop tools and training within the next 
year to provide the necessary guidance.
Challenges with Tracking of Contract Use
    Limited transparency into disaster contracting obligations further 
complicates the challenges noted above. We found in April 2019 that the 
full extent of disaster contracting--for both advance and post-disaster 
contracts--related to the 2017 disasters was and continues to be 
unknown.\14\ This was due to changes in the criteria for establishing 
and closing a National interest action (NIA) code--a mechanism for 
Government-wide tracking of emergency or contingency-related 
contracting--in FPDS-NG, and DHS's inconsistent implementation of the 
updated criteria for closing codes. Specifically, the codes for Harvey 
and Irma closed on June 30, 2018, less than a full year after the 
hurricanes hit. The code for Maria is valid through June 15, 2019, 
about 21 months after that hurricane made landfall. This is in contrast 
to prior hurricanes, for which codes sometimes remained open more than 
5 years after the disaster, with the code for Hurricane Katrina being 
open for 13 years after the disaster. The ability to identify disaster 
contracting for the 2018 hurricanes was similarly limited as the NIA 
codes for Hurricanes Florence and Michael expired on March 15, 2019 and 
April 12, 2019, respectively, about 6 months after those storms made 
landfall.
---------------------------------------------------------------------------
    \14\ GAO-19-281.
---------------------------------------------------------------------------
    Based on a memorandum of agreement, the General Services 
Administration (GSA), DHS, and the Department of Defense (DOD) are 
jointly responsible for determining when a NIA code should be 
established and closed. DHS delegated its role, on behalf of civilian 
agencies for disaster or emergency events, to its Office of the Chief 
Procurement Officer. The agreement outlines criteria DHS should 
consider in making determinations to establish and close a NIA code. 
For our April 2019 review, we identified changes in these criteria 
between June 2012 and June 2018. For example, the updated agreement 
does not include the National interest and visibility of an event as 
criteria for extending a NIA code, allowing a NIA code to expire 
regardless of the high visibility of the event and information needs of 
key users. DHS officials reported several rationales to support their 
decision to close the NIA codes for the 2017 hurricanes, but these were 
inconsistent with the criteria in the agreement and did not consider 
key user needs or fully explain the decisions to close the codes.
    Once a NIA code in FPDS-NG is closed, there is no other publicly-
available, Government-wide system available to comprehensively track 
contract obligations for specific events. Our April 2019 report 
demonstrated the magnitude of contract dollars that are no longer 
easily trackable once a NIA code is closed. For example, using the 
description field in FPDS-NG, we found that between July 1 and 
September 30, 2018--after the NIA codes were closed--agencies obligated 
at least $259 million on contracts for Hurricanes Harvey and Irma. 
However, not all agencies put event-specific information in the 
description field, and we found for the 2017 hurricanes only 35 percent 
of contract obligations linked to a NIA code included this information. 
Moreover, as we have previously reported, and illustrate in figure 2, 
it can take years to fully account for Federal contract obligations 
related to response and recovery after a hurricane.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In our April 2019 report, we made two recommendations, including 
that
  <bullet> GSA, in coordination with DOD and DHS, assess whether the 
        criteria in the current NIA code agreement meets the long-term 
        needs for high visibility events and account for the needs of 
        users, such as FEMA, other agencies, and Congress; and
  <bullet> in the interim, DHS, in coordination with DOD and GSA, 
        should keep the existing NIA codes for disasters open, reopen 
        the NIA codes for Hurricanes Harvey, Irma, Florence, and 
        Michael, and request that agencies retroactively update 
        applicable contract actions to reflect these codes, to the 
        extent practicable.
    GSA and DOD indicated they would work jointly with DHS to assess 
the criteria in the agreement within the year. DHS did not comment on 
that recommendation.\15\ Given the high visibility and National 
interest in these events, assessing the criteria, keeping NIA codes 
open, and reopening closed codes for the recent disasters to the extent 
practicable would help ensure visibility over Federal disaster 
contracts.
---------------------------------------------------------------------------
    \15\ DHS did not concur with a draft recommendation to keep the 
existing NIA codes open, citing concerns with being bound by the 
current agreement and its authority to direct other agencies to 
retroactively update relevant contract actions to reflect the reopened 
codes. We revised that recommendation to address these concerns.
---------------------------------------------------------------------------
    In conclusion, given the circumstances surrounding the 2017 
disasters, and the importance of preparedness for future disasters, it 
is critical to ensure that FEMA is well-positioned to respond through 
its use of contracts. Our work has shown that without effective 
planning on the use of contracts, FEMA may face challenges in quickly 
providing critical goods and services to survivors following a 
disaster. Further, without effective coordination, FEMA cannot ensure 
that local, State, and Federal partners have the tools they need to 
assist in disaster response. Moreover, not tracking certain information 
on a Government-wide basis in FPDS-NG may result in key users lacking 
the information necessary to provide oversight of FEMA's and other 
agencies' disaster contract actions. Implementing our recommendations 
to update its planning guidance and advance contract strategy; assess 
acquisition work force needs; improve coordination with State, local, 
and Federal partners; and improve tracking of disaster contracting 
actions will help FEMA overcome key challenges it faces in contracting 
during a disaster, and improve future response efforts.
    Chairman Payne, Chairwoman Torres Small, Ranking Members King and 
Crenshaw, and Members of the subcommittees, this concludes my 
statement. I would be pleased to respond to any questions.

    Mr. Payne. Thank you for your testimony.
    Now I recognize Ms. Trimble to summarize her statement for 
5 minutes.

  STATEMENT OF KATHERINE TRIMBLE, DEPUTY ASSISTANT INSPECTOR 
   GENERAL FOR AUDITS, OFFICE OF THE INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Trimble. Thank you, Chairman Payne, Chairwoman Torres 
Small, Ranking Members King and Crenshaw, and Members of the 
subcommittees. Thank you for inviting me here today to discuss 
lessons learned from past disasters to improve FEMA 
contracting.
    My testimony today will focus on the Department of Homeland 
Security Office of Inspector General's work to assess the 
efficiency and effectiveness of FEMA's contracting practices in 
support of disaster response and recovery efforts.
    As the OIG's body of work has shown, FEMA has long-standing 
challenges managing both its contracting process and ensuring 
locally-awarded contracts meet Federal requirements.
    First, let me provide some context. As you know, when 
disasters occur, State and local entities are the first to 
respond. But when the magnitude of a disaster exceeds the 
State, territorial, Tribal, or local government's capabilities, 
FEMA may assist, including through awarding Federal contracts.
    However, our recent work has demonstrated that FEMA 
contracting needs improvement. For example, in our recently-
issued report, we found FEMA did not follow all contracting 
laws, regulations, and procedures in awarding more than $30 
million for two Bronze Star contracts for roof tarps and 
plastic sheeting.
    Although expediting the contract award process may be 
necessary following major disasters, FEMA's missteps could have 
caused a qualified bidder to be eliminated from further 
consideration or, in the case of Bronze Star, an unqualified 
bidder receiving a Federal contract. Failure of the Bronze Star 
contracts delayed FEMA's process for delivering crucial 
supplies to help Puerto Rican residents protect their homes 
after Hurricane Maria.
    FEMA did not concur with our recommendations but told us 
that it is taking actions that we believe address the intent of 
our recommendations.
    In our March 2019 review of the Transitional Sheltering 
Assistance Program, we found FEMA released to its contractor 
the personally identifiable information of approximately 2.3 
million disaster survivors of the 2017 hurricanes and 
wildfires. FEMA released survivors' financial account 
information, putting them at an increased risk of identity 
theft and fraud. This privacy incident occurred because FEMA 
lacked controls to ensure it shared only what the contractor 
needed to administer the TSA program.
    While we commend FEMA for already taking actions to address 
our recommendations, FEMA estimates it will not fully implement 
all recommendations until June 2020, 1 year after the coming 
hurricane season.
    Now I will discuss contract-related challenges affecting 
local governments and impacting FEMA reimbursement.
    Following disasters, local communities contract for a range 
of goods and services, yet our work has found FEMA faces 
significant challenges ensuring State and local governments 
understand and comply with Federal requirements. From October 
2014 through May 2019, we identified more than $363 million in 
contract costs ineligible for Federal reimbursement because 
entities did not follow Federal contracting requirements.
    One common challenge with local contracts is monitoring 
debris removal. Debris-removal costs are significant, averaging 
about one-third of total damage costs per recent hurricanes, or 
an estimated $1.5 billion in Florida and Georgia following 
Hurricane Irma.
    Our September 2018 management alert highlights the 
financial risks involved when contractors are not properly 
monitored. FEMA's guidance places the responsibility for 
monitoring debris-removal operations on local governments. We 
generally found that local governments hired contractors, 
debris-monitoring companies, to oversee other contractors, 
debris haulers. We also found that FEMA and the State did not 
perform direct monitoring to ensure local governments fulfilled 
their responsibilities.
    Debris-monitoring companies are responsible for estimating 
debris loads. If monitors overestimate the amount of debris 
collected, local governments will pay more than they should and 
then request Federal reimbursement at an inflated cost to 
taxpayers.
    Our team traveled to Florida and Georgia and observed 
debris-removal operations first-hand. These pictures from our 
fieldwork depict truckloads that the monitor overestimated as 
50 to 90 percent full when, in reality, the trucks were only 25 
to 50 percent full.
    Our review found that when FEMA provided even limited 
oversight, such as it did in Georgia, it identified almost 
half-a-million dollars in ineligible debris costs for one 
county in just 1 week.
    In closing, the massive scale of damage caused by seemingly 
more frequent disasters and the large number of high-dollar-
value contracts that FEMA and local communities will continue 
to award pose grave concern. For these reasons, we continue to 
review these areas, aiming to emphasize the need for positive 
change. We will advise you of the results of our on-going work 
once it is completed.
    Mr. Chairman, Ms. Chairwoman, this concludes my testimony. 
I am happy to answer any questions you or the other Members of 
the subcommittee may have. Thank you.
    [The prepared statement of Ms. Trimble follows:]
                Prepared Statement of Katherine Trimble
                              May 9, 2019
                            why we did this
    The inspections and audits discussed in this testimony are part of 
our on-going oversight of FEMA's contracting practices in support of 
disaster response and recovery efforts.
                           what we recommend
    We made numerous recommendations in these reports. Our 
recommendations are aimed at helping FEMA address management failures 
in overseeing procurements and reimbursing procurement costs.
                             what we found
    This testimony highlights the OIG's efforts at improving the 
efficiency and effectiveness of FEMA's disaster response and recovery 
contracting practices. In particular:
  <bullet> Lessons Learned from Prior Reports on Disaster-related 
        Procurement and Contracting.--We published this report to 
        remind FEMA of the challenges that arise during the disaster 
        recovery phase. The report summarizes procurement concerns we 
        reported from fiscal years 2015 through 2017.
  <bullet> Management Alert--Observations of FEMA's Debris Monitoring 
        Efforts for Hurricane Irma.--We concluded that FEMA removed the 
        Federal and State monitoring responsibilities for debris 
        operations from its Public Assistance Program and Policy Guide, 
        increasing the risk of fraud, waste, and abuse of taxpayer 
        funds.
  <bullet> Management Alert--FEMA Did Not Safeguard Disaster Survivors' 
        Sensitive Personally Identifiable Information.--FEMA exposed 
        2.3 million survivors' Personally Identifiable Information to 
        its contractor, in violation of the Privacy Act of 1974 and its 
        own contract with the company.
  <bullet> FEMA Should Not Have Awarded Two Contracts to Bronze Star 
        LLC.--FEMA inappropriately awarded two contracts due to 
        management control weaknesses.
                             fema response
    FEMA has generally concurred with our recommendations; however, 
over 100 recommendations, many addressing issues discussed in this 
testimony remain unimplemented.
    Chairman Payne, Chairwoman Torres Small, Ranking Members King and 
Crenshaw, and Members of the subcommittees, thank you for inviting me 
here today to discuss lessons learned from past disasters to improve 
Federal Emergency Management Agency (FEMA) contracting. My testimony 
today will focus on the Department of Homeland Security Office of 
Inspector General's (OIG) work to assess the efficiency and 
effectiveness of FEMA's contracting practices in support of disaster 
response and recovery efforts. It is important to continue addressing 
these challenges ahead of the 2019 hurricane season that begins on June 
1.
    Within 30 days in August and September 2017, 3 unprecedented, 
catastrophic hurricanes devastated areas of the United States and its 
territories, causing significant destruction. Immediately following 
these events, the most destructive wildfires in California's history 
devastated the northern parts of the State. In response to these 
hurricanes and wildfires, the President signed 7 major disaster 
declarations, authorizing FEMA to provide individual assistance, public 
assistance, and hazard mitigation assistance to affected communities 
within designated areas. In addition to the situational challenges FEMA 
faced from these disasters, long-standing procurement issues affected 
FEMA's ability to respond. Our work has highlighted some of these 
challenges, including the canceled Bronze Star roof tarp contracts and 
procurement issues related to debris removal in Florida, which I will 
discuss further in my testimony.
                               background
    When disasters occur, State and local governments are typically 
responsible for disaster response efforts. When the magnitude of an 
incident exceeds the affected State, territorial, Tribal, or local 
government capabilities to respond or recover, FEMA provides Federal 
assistance to aid their efforts, under the Robert T. Stafford Disaster 
Relief and Emergency Assistance Act, as amended (Stafford Act).
    FEMA's public assistance (PA) program provides assistance to these 
Government entities and certain types of private non-profit 
organizations so that communities can quickly respond to, and recover 
from, Presidentially-declared major disasters or emergencies. FEMA and 
PA grant recipients must comply with all applicable Federal 
regulations, including Title 44 of the Code of Federal Regulations 
(CFR) and 2 CFR Part 200, Uniform Administrative Requirements, Cost 
Principles, and Audit Requirements for Federal Awards, established by 
the Office of Management and Budget. Responsible entities are defined 
as:
  <bullet> Recipient.--A non-Federal entity that receives a Federal 
        award directly from a Federal awarding agency to carry out an 
        activity under a Federal program. Recipients typically include 
        States, territories, and Tribal governments.
  <bullet> Subrecipient.--A non-Federal entity that receives a subaward 
        from a pass-through entity (i.e., the recipient) to carry out 
        part of a Federal program. Subrecipients include local 
        governments and certain not-for-profit organizations.
    FEMA works in partnership with the grant recipient to assess 
damages, educate potential subrecipients, and formulate projects 
(subawards) for emergency or permanent work. The type of assistance 
available may vary among designated areas. FEMA determines project 
eligibility based on factors such as the applicant's legal 
responsibility, affected facility, type of work, and cost. In addition, 
FEMA categorizes all work as either emergency, (e.g., debris removal) 
or permanent (e.g., roadway and bridge repairs).\1\
---------------------------------------------------------------------------
    \1\ FEMA's Public Assistance Program and Policy Guide (PAPPG).
---------------------------------------------------------------------------
FEMA's Role in Awarding Federal Contracts
    In addition to the above responsibilities, FEMA also provides goods 
and services directly to safeguard disaster survivors and to assist 
State, local, territorial, and Tribal governments with their response 
efforts. For example, during disaster response, FEMA may take immediate 
actions to save lives, protect property, and meet basic human needs, 
such as temporary roof repairs in the form of blue tarps and plastic 
sheeting.
    According to FEMA guidance, it competes procurements whenever 
possible and practical, uses advance contracting for recurring 
disaster-related requirements, and at times uses other contracting 
methods.\2\ FEMA is responsible for ensuring all contract activities 
comply with the Federal Acquisition Regulation (FAR), which requires 
agencies to carry out acquisition planning activities for all 
acquisitions to ensure that the Government meets its needs in the most 
effective, economical, and timely manner possible. According to FEMA, 
it obligated more than $4.9 billion in contracts in 2017 and 2018.\3\
---------------------------------------------------------------------------
    \2\ Advance contracts are those contracts that are established 
prior to disasters and that are typically needed to quickly provide 
life-sustaining goods and services in the immediate aftermath of 
disasters.
    \3\ FEMA Disaster Contracts Quarterly Report, Fiscal Years 2017-
2018. Note: Fiscal Year 2018 Quarter 4 data has not yet been published.
---------------------------------------------------------------------------
FEMA's Role Overseeing State and Local Awarded Contracts
    State, territorial, Tribal, and local governments, as FEMA grant 
recipients and subrecipients, use PA program grant funds to respond to 
and recover from major disasters. To help achieve these goals, these 
governments procure a range of goods and services following disasters, 
such as debris removal and debris monitoring services; water, food, and 
shelter; permanent repairs to roads and bridges; and repairs to 
critical public facilities like schools and hospitals.
    States, territorial, Tribal, and local governments must comply with 
Federal procurement requirements outlined in 2 CFR Part 200, and are 
also required to comply with FEMA guidance. For instance, the Public 
Assistance Program and Policy Guide (PAPPG) combines all PA program 
policy into a single volume and provides an overview of the PA program 
implementation process with links to other publications and documents 
with additional process details.\4\ The PAPPG also contains PA program 
policy to guide eligibility determinations, including Federal 
procurement and contracting requirements.\5\
---------------------------------------------------------------------------
    \4\ FEMA website, https://www.fema.gov/media-library/assets/
documents/111781 (as of April 24, 2019).
    \5\ PAPPG, version 3.1, Chapter 2: Public Assistance, V. Cost 
Eligibility, G. Procurement and Contracting Requirements (March 2018).
---------------------------------------------------------------------------
    FEMA is responsible for monitoring States, territories, and Tribal 
governments to ensure they are properly administering grants. States, 
territories, and Tribal governments, in turn, must manage local 
government and non-Government entities to ensure grant fund 
expenditures comply with Federal procurement requirements. 
Noncompliance can result in high-risk contracts that may lead to 
excessive and ineligible costs. In addition, failure to follow these 
Federal requirements can hinder many of the socioeconomic goals 
Congress intended.\6\
---------------------------------------------------------------------------
    \6\ Lessons Learned from Prior Reports on Disaster-related 
Procurement and Contracting (OIG-18-29) (December 2017).
---------------------------------------------------------------------------
    To address some of the State and local concerns surrounding 
procurements, FEMA has implemented a Procurement Disaster Assistance 
Team to provide procurement-specific training and resources to State 
and local government officials, typically during response efforts, to 
achieve greater compliance with procurements under grants. Following 
the 2017 hurricanes, FEMA deployed staff to Texas, Florida, Puerto 
Rico, and the U.S. Virgin Islands, to provide real-time procurement 
support.\7\ \8\
---------------------------------------------------------------------------
    \7\ OIG-18-29 and FEMA's 2017 After Action Report (December 2017).
    \8\ DHS OIG will discuss Procurement Disaster Assistance Team 
efforts in a report expected to be issued later this year.
---------------------------------------------------------------------------
             results of oig audits and our recommendations
    Following the 2017 disasters, the OIG initiated several audits 
related to FEMA's processes for awarding and administering contracts. 
Additionally, the OIG regularly audits PA grant awards, which include a 
review of State and local entities' procurements and related 
expenditures. Collectively, these reviews illustrate a pattern of FEMA 
management failures in overseeing procurements and reimbursing 
procurement costs.
OIG Audits of FEMA-Awarded Contracts
  <bullet> FEMA did not follow procurement requirements during Bronze 
        Star contracting.--As noted in our May 2019 report, FEMA wasted 
        personnel resources, time, and taxpayer money by issuing, 
        canceling, and reissuing contracts for blue tarps for survivors 
        in Puerto Rico to protect their homes from further damage after 
        Hurricanes Irma and Maria.\9\ FEMA did not follow all 
        procurement laws, regulations, and procedures in awarding more 
        than $30 million for two Bronze Star contracts. Specifically, 
        FEMA did not fully determine Bronze Star's or its supplier's 
        compliance with the contracts' terms, conducted inaccurate 
        technical evaluations of proposals, used incorrect FAR clauses 
        in its original solicitations, and did not consult the Disaster 
        Response Registry. As a result, FEMA inappropriately awarded 
        the two contracts to Bronze Star, which delayed delivery of 
        crucial supplies and impeded Puerto Rican residents' efforts to 
        protect their homes and prevent further damage. We recommended 
        that FEMA take actions, including developing new or updating 
        existing policies, to better ensure that future prospective 
        contractors can meet the terms of FEMA's contracts. However, 
        FEMA did not concur with any of our recommendations, 
        maintaining that its existing processes adequately ensure that 
        all contract terms and conditions are clearly defined and 
        implemented.
---------------------------------------------------------------------------
    \9\ FEMA Should Not Have Awarded Two Contracts to Bronze Star LLC 
(OIG-19-38) (May 2019).
---------------------------------------------------------------------------
  <bullet> FEMA risked PII of millions of survivors by not following 
        specifications of a Transitional Sheltering Assistance (TSA) 
        contract.--FEMA released to its contractor Personally 
        Identifiable Information (PII) and Sensitive PII (SPII) of 
        approximately 2.3 million disaster survivors of the 2017 
        hurricanes and wildfires. This was in direct violation of 
        Federal and DHS requirements and the terms of the TSA contract. 
        The contract identifies 13 data elements FEMA must send to its 
        contractor to verify disaster survivor eligibility during the 
        TSA check-in process at participating hotels. However, FEMA 
        repeatedly released PII from 20 data fields, including 
        survivors' bank account and electronic funds transfer numbers, 
        even though the TSA contractor did not need this PII to 
        administer the program on FEMA's behalf. This privacy incident 
        occurred because FEMA lacked controls to ensure it shared only 
        the data elements the contractor required to perform its 
        official duties administering the TSA program.\10\ We 
        recommended that FEMA assess the extent of the privacy incident 
        and implement a process to destroy the erroneously-released 
        data, as well as implement controls to ensure that only 
        required data is released to contractors in the future. FEMA 
        has already begun taking actions to address our 
        recommendations, but estimates it will not complete 
        implementing all recommendations until June 30, 2020. Given the 
        sensitive nature of these findings, we urge FEMA to expedite 
        this time line.
---------------------------------------------------------------------------
    \10\ Management Alert--FEMA Did Not Safeguard Disaster Survivors' 
Sensitive Personally Identifiable Information (Redacted) (OIG-19-32) 
(March 2019).
---------------------------------------------------------------------------
OIG Audits of FEMA Grant Awards to Recipients and Subrecipients
    Over the years, our work has shown that FEMA continues to face 
systemic problems and operational challenges and fails to manage 
disaster relief grants and funds adequately. As we noted in our 
December 2017 report on lessons learned from disaster-related 
contracting \11\ and 11 subsequent audit reports on various State and 
local grant awards,\12\ FEMA faces significant challenges in ensuring 
proper management of FEMA disaster funds--namely, ensuring disaster 
grant recipients and subrecipients understand and comply with Federal 
regulations and FEMA guidelines.
---------------------------------------------------------------------------
    \11\ OIG-18-29.
    \12\ See Appendix A for a complete listing of these reports.
---------------------------------------------------------------------------
    For example, from October 2014 through May 2019, we identified (and 
questioned) more than $363 million in ineligible contract costs because 
local entities did not follow Federal procurement regulations. 
Furthermore, we identified more than $207 million in ineligible costs 
that subrecipients may have incurred had we not identified the 
procurement problems before FEMA obligated disaster assistance grant 
funds.\13\ These procurement-related deficiencies include:
---------------------------------------------------------------------------
    \13\ OIG-18-29 and Appendix A.
---------------------------------------------------------------------------
  <bullet> Failure to provide full and open competition, resulting in 
        FEMA having limited assurance that incurred costs were 
        reasonable, as well as an increased risk for fraud, waste, and 
        abuse.
  <bullet> Failure to take all affirmative steps to assure the use of 
        disadvantaged businesses when possible, resulting in small and 
        minority firms, women's business enterprises, and labor surplus 
        area firms not always having sufficient opportunities to bid on 
        Federally-funded work.
  <bullet> Failure to include all required contract provisions, 
        resulting in increased risk of misinterpretations, pricing 
        errors, increased scope of work, and contract disputes.
  <bullet> Failure to verify whether contractors were suspended, 
        debarred, or otherwise excluded or ineligible, which can result 
        in U.S. taxpayers bearing excessive and ineligible costs. Lack 
        of compliance also increases the risk of favoritism, collusion, 
        fraud, waste, and abuse.
    Our prior reports contained recommendations to help FEMA address 
on-going issues and improve its related controls. For example, we 
recommended FEMA:
  <bullet> recover and de-obligate Federal grant funds awarded to or 
        spent by local governments that did not follow appropriate 
        acquisition standards and contracting procedures;
  <bullet> debar organizations and individuals responsible for 
        regulatory and ethical infractions or gross mismanagement of 
        Federal funds;
  <bullet> improve technical assistance provided to State and local 
        governments to help ensure compliance with all laws, 
        regulations, and grant guidance; and
  <bullet> update and improve grant and disaster-related guidance, 
        policies, and procedures to help ensure that Federal funds are 
        spent appropriately and receive proper monitoring.
    Currently, there are 109 OIG recommendations to FEMA that remain 
open and unimplemented. Many are related to the procurement issues 
summarized above, and corrective action is needed in response to all of 
them to strengthen FEMA as a whole.
OIG 2017 Disaster Activities
    Oversight of debris removal monitoring operations highlights one of 
the common State and local procurement challenges. By and large, FEMA 
grant recipients and subrecipients rely on contractors to collect and 
remove disaster debris after major disasters. Our September 2018 
management alert on debris monitoring efforts following Hurricane Irma 
highlights the risks of contractors not being properly monitored.\14\
---------------------------------------------------------------------------
    \14\ Management Alert--Observations of FEMA's Debris Monitoring 
Efforts for Hurricane Irma (OIG-18-85), September 2018.
---------------------------------------------------------------------------
  <bullet> FEMA did not ensure subrecipients provided adequate 
        oversight of debris removal operations in Georgia or Florida.--
        A majority of the municipalities in Florida we visited relied 
        on contractors to collect and remove debris and to monitor 
        debris operations.\15\ However, local municipalities generally 
        did not have their own personnel engaged in actively monitoring 
        the contractors' debris removal capacities or contract 
        execution.\16\ We believe the lack of monitoring may have been 
        due to FEMA's eliminating debris monitoring responsibilities in 
        drafting its PAPPG. The PAPPG encourages, but does not require, 
        the subrecipient to use its own employees to monitor debris 
        removal operations. FEMA's change from the 2010 guidance to the 
        PAPPG resulted in:
---------------------------------------------------------------------------
    \15\ OIG-18-85.
    \16\ FEMA refers to a subrecipient's permanently employed personnel 
as ``force account labor'' (44 CFR Sec.  206.228).
---------------------------------------------------------------------------
  <bullet> loss of specific guidance for FEMA, States, and local 
        governments regarding debris monitoring and oversight 
        responsibilities;
  <bullet> FEMA not directly overseeing debris operations, including 
        monitoring and hauling; and
  <bullet> an increased risk of overstated debris loads. FEMA's current 
        guidance provides little to no incentive for subrecipients to 
        oversee the debris removal process as required by Federal 
        regulations.\17\ We recommended that FEMA implement clear and 
        unambiguous guidance for debris removal operations, including 
        guidance on managing and overseeing contractors, as well as how 
        to determine the appropriate level of debris removal oversight. 
        FEMA's estimated completion date for implementing clear 
        guidance is August 30, 2019; but, as of April 2019, FEMA has 
        not provided any updates. Given the importance of this 
        information, we urge FEMA to expedite this time line.
---------------------------------------------------------------------------
    \17\ 2 CFR  200.318(b) requires the applicant to assert a ``high 
degree of oversight in order to obtain reasonable assurance that the 
contractor is using efficient methods and effective cost controls.''
---------------------------------------------------------------------------
  <bullet> Increased Costs to Taxpayers.--Overstated debris loads occur 
        when the percentage of debris collected by haulers is 
        overestimated. Local governments pay haulers for the volume of 
        debris collected in each truck, measured in cubic yards. For 
        instance, if a monitor of the hauling activity determines a 
        truck's total capacity is 10 cubic yards, and the truck is 
        assessed as 75 percent full, then the ``load call'' for that 
        truck is 7.5 cubic yards. To record the amount of estimated 
        cubic yards actually dumped, monitors prepare load call 
        tickets. Local governments use load call tickets to 
        substantiate their claims for debris removal. When monitors 
        overestimate debris loads or haulers collect unauthorized 
        debris, local governments may incur and request reimbursement 
        for unreasonable or ineligible costs. We recommended that FEMA 
        require local governments identify quality control methods for 
        verifying the amounts of debris collected and claimed for 
        Federal reimbursement.
    Figure 1 depicts a load that includes large tree limbs and a stump. 
The truck driver convinced the monitor to estimate the load call at 95 
percent full although more than half of the truck was empty.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 2 similarly depicts a load containing a large stump and tree 
branches. The monitor overstated the debris load at 50 percent of the 
truck's capacity when more than 75 percent of the truck was empty.

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The United States Army Corps of Engineers (USACE) visited one 
Georgia county and validated a 28,000 cubic yard overstatement for a 
single week of debris removal operations. At $16.43 per cubic yard, 
this equates to $460,040 in ineligible costs for just one subrecipient 
for only 1 week.
    Figure 3 illustrates what USACE personnel observed throughout the 
week they shadowed contracted monitors in that Georgia county.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Debris removal is a common problem that occurs after most disasters 
across the country. Collectively, in our prior OIG audits we found a 
wide range of debris removal problems, including contracts awarded 
without proper competition; ineligible contracts, such as time and 
materials contracts used outside of the eligibility period; inadequate 
accounting and contractors overbilling local governments; and 
collection of ineligible debris from private or ineligible 
property.\18\
---------------------------------------------------------------------------
    \18\ FEMA's Oversight and Management of Debris Removal Operations 
(OIG-11-40), (February 2011).
---------------------------------------------------------------------------
                 looking forward: related on-going work
    The OIG has a number of on-going audits and reviews that we 
initiated based on our observations during visits to disaster sites and 
post-disaster analyses. In most of our work we examine contracting 
issues similar to those highlighted in my testimony today. We will be 
reporting on these issues later this year. These audits include:
  <bullet> An audit of FEMA's use of advance contracts in Puerto Rico 
        and whether those contracts are sufficient to meet previously 
        identified needs.
  <bullet> Two follow-on reviews of debris procurement issues--one for 
        the State of Florida following Hurricane Irma and another 
        specifically involving Monroe County, Florida. These reviews 
        will look at whether FEMA ensured State and local entities 
        followed procurement requirements and whether taxpayer dollars 
        could have been saved through better contracting practices.
  <bullet> An audit of FEMA's PA grant awards to Puerto Rico Electric 
        Power Authority (PREPA) to determine whether these grants, and 
        subsequent contracts between PREPA and Whitefish Energy 
        Holdings LLC and Cobra Acquisitions, comply with Federal laws 
        and regulations, and FEMA guidelines.
  <bullet> Additional work assessing FEMA's contracts to administer the 
        Transitional Sheltering Assistance Program, and whether this 
        program fully met disaster survivor needs.
  <bullet> An audit of FEMA's supply chain management and distribution 
        of commodities in Puerto Rico after Hurricanes Irma and Maria.
  <bullet> An audit of FEMA contract award processes to assess whether 
        its policies and procedures are sufficient to assess the 
        capabilities of prospective contractors for disaster response 
        commodities and services.
  <bullet> An audit of the Sheltering and Temporary Essential Power 
        program in Puerto Rico, being implemented under Tu Hogar 
        Renace, to determine whether the program, including the use of 
        contractor support, has complied with Federal regulations and 
        internal policies and has achieved its overall goals.
  <bullet> An audit of FEMA's oversight of State and local government 
        spending in response to Federally-declared disasters.
                               conclusion
    The massive scale of damage caused by seemingly more frequent 
disasters, as well as the large number of high-dollar-value contracts 
that FEMA and local communities will continue to award and FEMA will 
continue to reimburse pose grave concern. There is a significant risk 
of exposing billions of taxpayer dollars to fraud, waste, and abuse. As 
we have found in our prior work, FEMA needs to improve its management 
of the contracting process to ensure staff adhere to the FAR and agency 
requirements, better protect survivor data, and avoid delays in the 
delivery of critical services and supplies. FEMA can also enhance its 
oversight of Federal funds by improving its guidance to local 
communities that apply for PA program reimbursement of disaster 
response and recovery costs. For these reasons, we will continue to 
review these areas, aiming to emphasize the need for positive change. 
We will advise you of the results of our work once it is completed.
    Mr. Chairman, Ms. Chairwoman, this concludes my testimony. I am 
happy to answer any questions you or other Members of the subcommittees 
may have.
                               appendix a

                        LIST OF OIG AUDIT REPORTS
------------------------------------------------------------------------
         Report Number               Report Title          Date Issued
------------------------------------------------------------------------
                                OIG Audits of FEMA
                                 Grant Awards
OIG-18-09.....................  Management Alert--FEMA  October 2017.
                                 Should Recover $6.2
                                 Million in Public
                                 Assistance Funds for
                                 Disaster Repairs That
                                 Are Not the Legal
                                 Responsibility of
                                 Richland County,
                                 North Dakota.
OIG-18-17.....................  Napa State Hospital,    November 2017.
                                 California, Should
                                 Improve the
                                 Management of Its
                                 $6.7 Million FEMA
                                 Grant.
OIG-18-25.....................  The Omaha Tribe of      November 2017.
                                 Nebraska and Iowa
                                 Mismanaged $14
                                 Million in FEMA
                                 Disaster Grants.
OIG-18-60.....................  The city of Waterloo,   April 2018.
                                 Iowa Jeopardizes $1.9
                                 Million in Estimated
                                 FEMA Grant Funding.
OIG-18-62.....................  Victor Valley           April 2018.
                                 Wastewater
                                 Reclamation
                                 Authority,
                                 California, Provided
                                 FEMA Incorrect
                                 Information for Its
                                 $33 Million Project.
OIG-18-63.....................  FEMA Should Recover     May 2018.
                                 $20.4 Million in
                                 Grant Funds Awarded
                                 to Diamondhead Water
                                 and Sewer District,
                                 Mississippi.
OIG-18-64.....................  Cache County, Utah,     May 2018.
                                 Needs Additional
                                 Assistance and
                                 Monitoring to Ensure
                                 Proper Management of
                                 Its FEMA Grant.
OIG-19-05.....................  FEMA Should Disallow    November 2018.
                                 $9.1 Million in
                                 Public Assistance
                                 Grant Funds Awarded
                                 to Ascension Parish
                                 School Board,
                                 Louisiana.
OIG-19-06.....................  FEMA Should Disallow    November 2018.
                                 $22.3 Million in
                                 Grant Funds Awarded
                                 to the Chippewa Cree
                                 Tribe of the Rocky
                                 Boy's Indian
                                 Reservation, Montana.
OIG-19-09.....................  FEMA Should Recover     November 2018.
                                 $413,074 of Public
                                 Assistance Grant
                                 Funds Awarded to
                                 Nashville-Davidson
                                 County, Tennessee,
                                 for a May 2010 Flood.
OIG-19-12.....................  FEMA Should Recover     December 2018.
                                 $3,061,819 in Grant
                                 Funds Awarded to
                                 Jackson County,
                                 Florida.
                                OIG Summary Reports
OIG-18-06.....................  Summary and Key         October 2017.
                                 Findings of Fiscal
                                 Year 2016 FEMA
                                 Disaster Grant and
                                 Program Audits.
OIG-18-29.....................  Lessons Learned from    December 2017.
                                 Prior Reports on
                                 Disaster-related
                                 Procurement and
                                 Contracting.
OIG-18-75.....................  Summary and Key         September 2018.
                                 Findings of Fiscal
                                 Year 2017 FEMA
                                 Disaster Grant and
                                 Program Audits.
------------------------------------------------------------------------


    Mr. Payne. I would like to thank all the witnesses for 
their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for questions.
    I would really like to start with the Bronze Star issue. My 
understanding is that the company was formed a month before 
Hurricane Maria hit, had only two employees, and had never held 
a Government contract. Yet FEMA awarded the company two 
contracts worth more than $30 million, with the expectation 
that it would deliver 475,000 emergency tarps and 60,000 units 
of plastic sheeting for temporary roof repairs.
    For perspective, I have a visual on the monitors of the 
emergency tarps that were used on homes and building after 
Hurricane Maria. As you can see, there are a lot of structures 
with substantial roof damage. Disaster survivors needed these 
tarps.
    Ms. Trimble, can you tell the subcommittee what happened to 
the two contracts given to Bronze Star?
    Ms. Trimble. So, shortly after the contracts were awarded 
to Bronze Star, FEMA learned that Bronze Star would not be able 
to deliver the tarps in the time frame specified.
    That is the bottom line. I can go into a little bit, if you 
like, as to the problems we uncovered during the solicitation 
and award process that led to that outcome.
    Mr. Payne. OK.
    Mr. Kamoie, was FEMA aware that Bronze Star, a two-person 
company formed more than 1 month before Hurricane Maria hit 
landfall, didn't have any prior experience before awarding its 
contracts for emergency tarps and plastic sheeting? If so, did 
this raise any red flags for you?
    Mr. Kamoie. Thank you, Chairman Payne.
    Bronze Star was awarded those contracts after full and open 
competition. A lack of prior experience is not a reason to 
preclude a vendor from competing. They were determined to be 
technically acceptable and financially responsible and 
otherwise eligible.
    Those contracts ended up being--the tarp contract--1 of 6 
contracts, so we had redundant capability. As soon as it became 
clear to us that they were unable to perform, we terminated the 
contracts. Bronze Star was not paid under those contracts at 
all.
    Mr. Payne. Can the OIG respond to that, please?
    Ms. Trimble. So, in our review of the two Bronze Star 
contracts, we did find some missteps that FEMA took that we 
believe could have led to different outcomes.
    First of all, contracting staff did not use the Disaster 
Response Registry, which is required by the FAR, to look at 
potential vendors for the types of supplies and services they 
needed, including plastic sheeting and blue tarps.
    Second, the solicitations that FEMA posted included 
incorrect clauses as to what the source of the material should 
be. What FEMA posted was that all materials had to be from the 
United States when, in fact, they meant to post a clause that 
would have permitted a little more flexibility and allowed for 
some materials to come from outside of the United States.
    That led to the third problem, that when FEMA personnel 
reviewed the solicitations it received, the offers it received, 
rather than holding the bidders to the buy America, the 
America-only standard, it actually did review the offers based 
on the broader allowing of materials from outside of the United 
States.
    The problem with that is that, by posting a solicitation 
that required buy America, only U.S.-sourced products, I think 
FEMA missed out on the chance for other companies to bid, and 
then it was not an appropriate technical evaluation to say that 
Bronze Star and the other bidder met the terms of the contract, 
because they didn't, because Bronze Star said that it would be 
sourcing materials from both the United States and outside of 
the United States.
    Then, finally, our fourth observation was that we felt FEMA 
could have done more to confirm that Bronze Star would 
ultimately be able to meet the terms of the contract. For 
example, in the follow-on solicitation after Bronze Star 
failed, FEMA did ask the next contractors to provide more 
information verifying that they would in fact be able to meet 
the terms of the contract.
    Mr. Payne. OK.
    Well, I am going to try to stick within the parameters, and 
hopefully we will be able to come back to--we obviously see how 
big a problem this one company was.
    I will recognize the Ranking Member, Mr. King.
    Mr. King. Thank you, Chairman.
    First of all, I thank all the witnesses for your testimony.
    Mr. Kamoie, National Interest Action codes are used to 
track contract actions across the Federal Government as they 
relate to a particular disaster. These codes have kind of 
arbitrary closing dates. For instance, the NIA code for Katrina 
lasted for 13 years, the NIA code for Hurricane Sandy remained 
open for over 5 years, but after only 9\1/2\ months the NIA 
codes for Harvey and Irma were closed.
    Can you tell me what the criteria is for deciding when to 
keep them open and when to close them?
    Mr. Kamoie. Sure. The National Interest Action codes are 
governed by an agreement, a memorandum of agreement between the 
General Services Administration, the Department of Homeland 
Security, and the Department of Defense. Based on the GAO's 
recommendation, and I believe I saw in the General Services 
Administration response, we will revisit those time lines with 
GSA and DOD.
    Mr. King. Ms. Trimble, can you comment on that, the 
disparity between 13 years and 9\1/2\ months? I am not 
suggesting he is wrong; I am just wondering why there is such a 
disparity.
    Ms. Trimble. So that was work that Ms. Mak spoke to, if you 
would like to ask her the question.
    Ms. Mak. When we asked Department of Homeland Security why 
they closed these National Interest Action codes, or NIA codes, 
their rationale was very inconsistent with the criteria that 
they have in this memorandum of agreement between these 3 
departments.
    One of them they said was, the purpose of these NIA codes 
is to track Federal procurement related to response and not 
recovery. But their own agreement says it covers response and 
recovery.
    Another reason they gave us was that the number of contract 
actions that FEMA was making had decreased. Our concern there 
was that there were other components still within DHS as well 
as DOD that continue to execute contracts related to both 
Harvey and Irma.
    Then DHS also pointed to FEMA's own internal tracking 
system that has the ability to track contracts by disaster and 
budget line, but not all other agencies that respond to that 
way have these internal systems. Then remember, internal agency 
systems are not available to the public, and there is no one-
stop-shop shopping for a Government-wide database other than 
this Federal Procurement Database System.
    Mr. King. OK. Thank you.
    I am trying to get some good news out of bad news. 
Obviously, we hear, you know, critiques at these type hearings, 
and I understand that. But how effective do you think FEMA is 
at lessons learned? For instance, having lived through Sandy 
and saw the devastation there, what lessons were learned from 
that that were successfully applied to subsequent hurricanes? 
In other words, can you show the actually positive action that 
resulted from Sandy?
    I guess we will start with the IG.
    Ms. Trimble. Sure. Thank you.
    So I think we have seen some mixed results in how FEMA has 
responded to the recommendations related to our body of work. 
We have years' worth of work looking at FEMA's relationship 
with State and local governments as they carry out work for 
disaster response and recovery, which is not, you know, done 
through direct FEMA contracts, but the State and local 
governments, they issue their own contracts that are then 
eligible for Federal reimbursement.
    So we, for years, have been recommending to FEMA--well, 
first of all, we have been finding for years that local 
governments aren't doing a very good job at following Federal 
contracting requirements, such as full and open competition or 
providing opportunities for local, small, and disadvantaged 
businesses.
    We also through the years have made a number of 
observations and often recommend that money that the local 
governments are requesting to be reimbursed is not, in fact, 
eligible, because they haven't followed Federal procurement 
contracting rules.
    FEMA has kind of a mixed bag in responding to our 
recommendations. They often don't take back money from local 
governments, which can be understandable, but what we are 
looking for is for FEMA to provide more specific information to 
State and local governments to make sure this problem doesn't 
happen in the first place, to make sure that local governments 
fully understand the requirements they are expected to adhere 
to if they are going to request to be reimbursed with Federal 
funds.
    Mr. King. Time is just about up, Ms. Mak. Do you have any 
further comments on that, or Mr. Kamoie?
    Ms. Mak. From GAO's perspective, our biggest concerns with 
FEMA in terms of being able to address these contracts are a 
lack of strategy, and then guidance to do a lot of these 
things, and then the systemic issue of acquisition planning. 
Given that work force is such a challenge as well, guidance is 
extremely important, to have that in place so people at least 
know where to go, what to see. The same thing applies for 
advance contracts, being able to have some guidance in place. 
Then the strategy of how we do it, the long-term, broader look 
of how we do it and how we can be better prepared.
    Mr. King. Mr. Kamoie.
    Mr. Kamoie. Thank you, Ranking Member King. Since you 
mentioned Sandy, I will just cite a few things that have 
happened since Sandy which we believe are improving.
    Mr. King. Quickly.
    Mr. Kamoie. Since Hurricane Sandy we have tripled our 
number of contracting officers, from 45 to 163.
    In our Office of the Chief Procurement Officer, we 
established expeditionary and incident support branches.
    Our competition rate for contracts in fiscal year 2017, 85 
percent of our contracts were competitive; in 2018, it was 77 
percent.
    Even GAO noted we have been responsive in training our 
contracting officers on defining a local area, for example, 
where----
    Mr. King. The Chairman is sort-of giving me a look here, so 
you have gone over the time. But, anyway, thank you very much.
    Mr. Chairman, thank you for your indulgence.
    Mr. Payne. Thank you, sir.
    Next, we will hear from the gentlelady from New Mexico, 
Chairwoman Torres Small.
    Ms. Torres Small. Thank you, Mr. Chair.
    Mr. Kamoie, I really appreciate you noting FEMA's role both 
before, during, and after disaster. I want to touch on FEMA's 
communication and coordination challenges with State and local 
governments, something that all of you have touched on during 
your testimony.
    A community I serve, the village of Ruidoso, New Mexico, 
has been struggling for more than 10 years to negotiate Federal 
assistance for extensive flooding that occurred back in 2008. 
Based on guidance from FEMA, the village awarded contracts for 
bridge replacements and is in the process of awarding contracts 
for extensive sewer repairs.
    As I understand it now, after a significant portion of the 
work is complete, FEMA has decided that some of the projects 
are no longer eligible for Federal assistance. After 10 years 
of slow correspondence, challenging regulations, and employee 
turnover, we are seeing local officials that have been given a 
June 2020 deadline to complete all remaining construction.
    Mr. Kamoie, I don't expect you to have the details on this 
particular situation, but can I have your commitment today that 
someone at FEMA will look further into this issue and 
communicate its findings with my office and the village of 
Ruidoso?
    Mr. Kamoie. Absolutely, Chairwoman Torres Small.
    Ms. Torres Small. Thank you.
    Mr. Kamoie. One word on our assistance and our coordination 
with State and local government. A development I believe 
certainly since Katrina is our Procurement Disaster Assistance 
Team.
    This is a team of highly-trained attorneys and contract 
specialists that we deploy to disasters to provide guidance to 
our State and local partners on Federal procurement 
requirements and the requirements of our public assistance 
grant program. In fiscal year 2019 thus far, they have been 
deployed to 80 percent of declared disasters.
    So we recognize the importance of providing good guidance.
    Ms. Torres Small. Thank you. I am glad to see that 
improvement made. The challenge is rehashing kind-of what 
happened in 2008 before a lot of these improvements were made.
    Mr. Kamoie. You have my commitment; we will follow up.
    Ms. Torres Small. Thank you.
    Now I am shifting a bit. FEMA's 2017 after-action report 
found that the agency's advance contracts were exhausted after 
Hurricanes Harvey, Irma, and Maria, and so FEMA committed to 
awarding new contracts for future storms.
    I noted that you recognize there are 87 current contracts. 
What is FEMA's process for determining that number and what 
types of contracts that are issued for advance contracts?
    Mr. Kamoie. That is a great question, Chairwoman Torres 
Small. We work with our program offices, the Office of Response 
and Recovery. We look at the needs of, you know, essentially 
the last several disaster seasons to understand where, had we 
had advance contracts in place, we might have delivered, you 
know, more quickly or more comprehensively.
    So it is a lessons-learned process and working with our 
field offices and our regions to understand what it is we would 
need in place, you know, to put the right agreements in place.
    Ms. Torres Small. Are you confident you have all the 
advance contracts you need for the 2019 hurricane season?
    Mr. Kamoie. Yes.
    Ms. Torres Small. In December 2018, a GAO report found that 
FEMA did not have an up-to-date strategy and clear guidance for 
its own contracting staff on the use of advance contracts. Ms. 
Trimble noted how such guidance could have helped in avoiding 
the contracting mistakes with Bronze Star.
    Mr. Kamoie, what steps is FEMA taking to address GAO's 
finding?
    Mr. Kamoie. I appreciate the question, Chairwoman Torres 
Small.
    We do hold training, regular training, with our disaster 
procurement staff. In fact, from April 29 to May 3, we had over 
100 of our staff, including our Disaster Acquisition Response 
Team in Baton Rouge, Louisiana. I have looked at the agenda of 
that multiple-day training, and it includes everything from 
advance contracting to local set-asides to documentation 
required when we deviate from local set-asides. So we 
continually provide training and guidance to our staff.
    Ms. Torres Small. Thank you.
    Ms. Mak, how would you assess that response so far?
    Ms. Mak. Our concern with the training is that when they 
provide the training, they have an advance contract list that 
is different than what FEMA headquarters has as their 
consolidated advanced contract list. When there are two 
resources being used as advance contract list, and they differ, 
it causes differences of what the States and localities know, 
and within FEMA, they don't know what advance contract lists 
are, what they are using. Both of those, we talked to 
officials, they are using both of those as resources. That 
inconsistency creates confusion. It creates: OK. What can I 
use? What is really available within FEMA?
    Then externally to States and localities, it, again, 
creates confusion so the States and localities don't really 
know what is available from the Federal Government.
    Ms. Torres Small. Thank you. I yield my time.
    Mr. Payne. Thank you.
    The Chair now recognizes Mr. Crenshaw, the Ranking Member.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Thank you all for being here. I want to start with where I 
left off on my opening statement about the report from the 
General Land Office from Texas, and I would again recommend 
everyone take a look at that. Some of the best ideas will come 
from local levels. Some of the issues they saw there were 
attempts to, I think, devolve some of the responsibilities down 
to the State level, where they understand their population 
better; they understand what needs to be done and can remove 
certain issues such as overlap, lack of coordination, and just 
more generally keeping the Government solutions to the lowest 
possible level. Are you aware of any other States, or has this 
conversation come up before, where States are asking to take on 
some of the roles traditionally done by FEMA with simply 
overarching support by FEMA?
    Mr. Kamoie. Thank you, Ranking Member Crenshaw. I mean, our 
philosophy in disaster response is that disasters should be 
Federally-supported, State-managed, and locally-executed. So I 
think it is a continual conversation about the relative roles 
and responsibilities and who can serve the population best. I 
am not familiar with that particular Texas Land Office report, 
but I look forward to reading it.
    Mr. Crenshaw. OK. What kind of progress has there been made 
in what has been brought up before, with this--better 
communications with States on what exactly FEMA is going to do 
and what exactly the State is going to do? Has there been any 
progress in that direction? As it relates to contracts 
specifically, too?
    Mr. Kamoie. I think the Procurement Disaster Assistance 
Team has made great strides in clarifying that, in that they 
have been to 80 percent of the declared disasters this year, 
and I believe last year they got to 70 percent. We continue to 
clarify and provide guidance.
    Even on debris monitoring, we are looking at how to update 
our debris monitoring guidance. We have made our partners aware 
that debris monitors are a reimbursable expense under the 
public assistance program. We are looking at developing 
uniformed guidance on noncompliance, so what our State and 
local partners can do about contractors who do not perform. So 
can we communicate better? I would submit to you, sir, we can 
always communicate better and always clarify. I do believe we 
have made progress.
    Mr. Crenshaw. I appreciate that. I am also especially 
concerned about the record-keeping issue. It is really hard to 
figure out what to do better if we don't keep good records, and 
this came up with the NIA issue as well. What is being done to 
fix that?
    Mr. Kamoie. So, in accordance with the GAO's 
recommendation, my understanding is that the three departments 
who are the parties to that memorandum of agreement about the 
time line and the criteria for the closer of the National 
incident action codes will revisit that agreement and make sure 
that we are providing the transparency we need.
    Mr. Crenshaw. OK. Related to work force issues, it is one 
of the most important things that ensures success, and you 
mentioned before that you have increased pretty markedly the 
number of contractors working. That is good news. How are they 
incentivized, though, to make the most efficient and effective 
decisions? So we are hearing a lot about the Bronze Star issue. 
Are there consequences when someone blatantly makes a mistake 
like that? How does that work?
    Mr. Kamoie. So, on the work force issue, because I have not 
actually talked about it in any depth. I mean, in addition to 
contractual support we put an acquisition support contract in 
place with 21 staff. We are seeking to fill an additional 51 of 
a cadre of on-call response and recovery staff. But we have 
also made available--no additional staff members of our 
existing procurement office in terms of their number, but we 
have cross-trained them to, all in our operations branch, 
support the National Response Coordination Center. There is 69 
available.
    As to your question as to accountability, the Bronze Star 
contract was a full and open competition and found technically 
acceptable. We continue to provide guidance. We use that as a 
lesson learned. So we continue to work with our work force to 
make sure they are making the most effective, efficient 
decisions they can.
    Mr. Crenshaw. OK. I want to end with a question about the 
MAPS systems. This is a recent system that got put in place to 
improve--improve how workers can use the contracting system, 
but it was also reported that many in the program office are 
unfamiliar with the system. So my question, are there any 
problems with the system that you would like to share with this 
committee, and are there any problems with getting everyone 
trained up on it?
    Mr. Kamoie. So it is a system that allows us to tell our 
program offices, for example, 18 months in advance of an 
expiration of a contract in place, so that we can work with 
them to plan for that acquisition. So it will take continual 
reinforcement, training, and guidance to get everybody to take 
maximum advantage of it. I don't think that is a problem of the 
system so far as change management and making sure everybody 
knows of the resource that is available.
    Mr. Crenshaw. Thank you.
    Thank you, Mr. Chairman.
    Mr. Payne. Thank you, Ranking Member.
    Next, we will have the gentlelady from Nevada, Ms. Titus.
    Ms. Titus. Thank you very much, Mr. Chairman.
    Mr. Kamoie, I appreciate that some of these things we have 
talked about happened before you got there, but I think we need 
to hear what steps FEMA's taking so that we can avoid another 
Tribute contracting problem or a Whitefish Energy problem, or a 
situation where one very generous chef and paella pan can feed 
more people than FEMA can. But what I hear from you is just 
kind-of piecemeal responses as opposed to any overall strategy. 
You continue to defend the contract with Bronze Star, and we 
have heard: Well, they have done a little; they are looking at 
it.
    But here is the title of the report: ``FEMA Should Not Have 
Awarded Two Contracts to Bronze Star LLC.'' That is about as 
plain as you can get. I mean, it doesn't say maybe they did, 
and it was legal, and they looked at everything.
    It says they should not have awarded it. That doesn't leave 
much question for doubt.
    So I think what we need from you is a strategy where you 
are looking at systemic changes, not just responding to 
individual disasters or contracts, but having said that, I want 
to ask you some more about the work force issue.
    I chair the Subcommittee on Economic Development, Public 
Buildings, and Emergency Management, and we have jurisdiction 
over the Stafford Act, so we are going to have some hearings in 
the coming weeks with the deputy administrator, and we want to 
talk about the shortfalls. you mentioned a few figures just 
there, but I have some basic questions.
    Have you looked at whether you think it would be better to 
have Government employees or long-term contracts to fill these 
work force needs? Do you have a strategy of that? Do you have a 
list of contracts that you have in place to kind-of get ahead 
of the game, as opposed to responding to incidents? Can you 
address those issues?
    Mr. Kamoie. Absolutely, Congresswoman Titus. Thank you for 
the questions. We are in the final stages, and I am sure 
deputy--or Acting Administrator Gaynor will speak to this when 
he visits with you, of a coordinated work force review, where 
we have looked at our incident management work force in an 
attempt, strategically, to right-size it, and look at what 
kinds of personnel would best fit those needs.
    We do have contractors in that work force in our public 
assistance and individual assistance, technical assistance 
positions, for example. Then we have other types of positions 
for others. So, once that coordinated work force review is 
completed, we would be glad to provide it to you and the 
committee. But we are taking a close look at that.
    In terms of--I just want to say, in terms of systemically 
looking at contracts, we do an after-action and look 
systemically across all of our contracts. I would submit to 
you, we never like to see a contractor not perform. We don't 
want to terminate for non-performance.
    In the 2017 hurricane season, between 59 advance contracts 
and 1,973 post-disaster contracts, out of 2,032 contracts, we 
terminated 4 for non-performance. Do we like to see that? Of 
course not. Is that evidence of a systemic problem that we need 
to address? It is an awful small percentage of the overall 
contracts. But we have taken the recommendations seriously. We 
have taken steps to require more information from potential 
vendors so that we can make responsibility determinations. We 
take our stewardship of taxpayer dollars very seriously. So we 
do look systemically at our contracting.
    Ms. Titus. I believe it was mentioned earlier that one of 
the contracts you gave was to a company that had been kind-of 
blacklisted or not used by other agencies. When you are 
choosing the contracts, do you look at that information to see 
if they have a record with other Government agencies that might 
not have been successful?
    Mr. Kamoie. We do, Congresswoman. I believe you are 
referring to Tribute, and there was what I would consider to be 
derogatory information, but unfortunately the system of record 
that kept that information kept it for 3 years. It turns out, 
upon further review, the derogatory information about non-
performance was over 3 years old. In fact, it was 5 years old. 
We paid Tribute only for what it delivered, the meals that it 
delivered, and that was 1 of 8 feeding contracts. So we had 
redundant capability to provide what disaster survivors needed.
    Ms. Titus. Is there anything legislative that you need to 
allow you to do this better?
    Mr. Kamoie. Ma'am, I can't think of another authority. If 
we do, we will certainly let you know. I believe we have the 
authorities we need. It relies on us continuing to train our 
contracting professionals, who are very much on the lookout to 
make sure we are being responsible stewards of the taxpayer 
dollars.
    Ms. Titus. Does the GAO agree with this assessment?
    Ms. Mak. Our biggest concern when it comes to managing 
these contracts like you indicated is work force. Until they 
really do a--even as I mentioned earlier, hiring contractor 
support and term-limited staff, dedicated disaster response, 
that is like a Band-Aid. That is a short-term solution. They 
have to have a long-term strategic plan, and the assessment 
that they gave us for 2018, to us, was not really an 
assessment. It just included numbers of people, of contracting 
officials. It didn't identify what kind of contracting 
officials you need. There are differences in contracting 
officials, and then where do you want them. In the regions?
    Like I mentioned, if you only have one full-time 
contracting official in each 1 of the 8 of the regions, that is 
a problem. So we need them to identify where and what, long 
term, have a strategy and put in place, and when is that going 
to happen. So we have asked for a time line and a plan.
    Ms. Titus. I would like to see that, if you get that.
    Ms. Mak. Yes.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Payne. Thank you.
    Next, we will have the gentleman from Louisiana, Mr. 
Higgins.
    Mr. Higgins. Thank you, Mr. Chairman, and thank the 
witnesses today, speaking to us in this important hearing. 
Regarding advance contracts, I have several questions. In the 
continental United States, responding to a disaster, when FEMA 
responds to a disaster, access to the affected and impacted 
communities and populations, we find a way to get there, 
regardless of road damage and bridges. Again, you are dealing 
with the continental United States.
    But when dealing with an island like Puerto Rico, one of 
the things that I encountered, and was quite frustrating in the 
effort to respond--I represent south Louisiana. We have major 
ports and tremendous skill set there, very compassionate 
people. We are certainly accustomed to dealing with natural 
disasters and hurricanes and have a density of population of 
men and women that generationally know how to respond and 
wanted to go help in Puerto Rico. One of those assets, shall we 
say, in south Louisiana, included barges that could quickly 
establish beach landing and access roads to the major roads and 
arteries to distribute FEMA's pre-positioned, pre-contracted 
services to the impacted areas and populations of Puerto Rico. 
Because the traditional access through the established ports 
and through the roads and bridges, it couldn't get anything 
anywhere.
    So, in the common-sense planning for advance contracts, 
when we are dealing with islands, populations, does FEMA now 
have a plan to have advance contracts for barge access, for 
beach landings? These guys can quickly establish access roads 
to distribute materials that ended up sitting in the ports and 
on the docks in Puerto Rico for a long time, was quite 
challenging to get that relief material and services and 
supplies, et cetera, to the impacted populations. What has FEMA 
done since then regarding beach access via barge?
    Mr. Kamoie. Thank you for the question, Congressman 
Higgins. We have enhanced our transportation contracts, 
shipping and air, for both the islands and Alaska. I will need 
to follow up with you on the details because I think you are 
mentioning some specific modes of transport, and I don't want 
to misspeak, but we have addressed with advance contract----
    Mr. Higgins. Can my office reach out to your office and 
share some data with you regarding that?
    Mr. Kamoie. Absolutely.
    Mr. Higgins. Thank you. I would like to move on. Building 
code enforcement in Puerto Rico is a concern that all of us 
should have. It is an American treasure. It has harvested the 
paychecks of working Americans and distributed quite 
compassionately in large amounts. In America, you know, we have 
an expectation that--you mentioned the stewardship of these 
funds. So building code enforcement, generally speaking, what 
is your observation on that? How strong--they have adopted new 
codes, which is encouraging, but how do you see the enforcement 
of building codes now that we are a year into this thing?
    Mr. Kamoie. Mr. Higgins, enforcement of building codes is 
outside both my expertise and area of responsibility, so I am 
going to take----
    Mr. Higgins. It is within your parameter of opinion, 
though.
    Mr. Kamoie. I am going to take the question back, and we 
will follow up with you----
    Mr. Higgins. That is a good answer.
    Mr. Kamoie [continuing]. On the agency's view.
    Mr. Higgins. Safe answer from a witness. One final 
question. What policies are in place to encourage contractors 
that have contracted with FEMA to avoid participating in fraud 
or accusations of fraud with subcontractors? I have had 
conversations with subcontractors that were encouraged to do 
work and then never paid by folks that had contracts with FEMA. 
They had no recourse through the Government because their 
contract wasn't with the Government. What investigative 
authority do you have? What recourse do these subcontractors 
have? What policies do you have in place to protect against 
fraud? With my remaining time, please answer that, sir.
    Mr. Kamoie. Certainly. We do take the stewardship 
seriously. We do provide oversight. I don't know the answer on 
what recourse or what remedy subcontractors have, but of course 
we have our Office of Inspector General. Within my division of 
FEMA, the Office of the Chief Security Officer, we have a Fraud 
Investigations Unit. So----
    Mr. Higgins. Can you get us--can you get the committee back 
a more specific answer on that? My time has expired, but we 
would appreciate that.
    Mr. Kamoie. Absolutely.
    Mr. Higgins. Thank you, Mr. Chairman. I yield.
    Mr. Payne. Thank you, sir.
    Next, we will have the gentleman from New York, Mr. Rose.
    Mr. Rose. Thank you, Chairman. I am always slightly 
interested in yielding all my time to Mr. Higgins because I 
always do enjoy your questions, sir. But I will resist. I will 
resist.
    My district was one of the hardest hit by Hurricane Sandy. 
We experienced first-hand how many bad contractors were really 
hired and how they just totally failed the great people of 
Staten Island and south Brooklyn and New York City. 
Misinformation led to just absolute chaos in the days after the 
storm. Contractors on the ground, they kept changing the rules 
on victims while losing their paperwork over and over and over 
again. They were overpaid. People got rich. Believe it or not, 
my district office still has active cases dealing with this 
recovery. So, you know, you all--I don't want to be redundant 
because we are all here with the shared interest of trying to 
fix something. So, sir,--Kamoie, right?
    Mr. Kamoie. Yes, Kamoie.
    Mr. Rose. You said something, though, that intrigued me 
just now. You said basically Congress can't give you any 
additional authority, you are good to go. My question is very 
simple. Are we? You know, in the event the next superstorm is 
coming--the next hurricane is coming. You said you have learned 
lessons from the past. When another natural disaster hits my 
community, or any of ours, is FEMA going to be there to get the 
job done, and what else can we do to ensure that that is the 
case?
    Mr. Kamoie. Congressman Rose, I appreciate the question. So 
my response on do we need additional authorities was related to 
looking systemically at our contracting practices. When 
Congresswoman Titus asked me that question, I can't think of 
any additional authority we need to look at our contracting. 
Congress did provide us on the response and recovery side--now 
I am going well beyond contracting and just the agency's 
overall response and recovery--Congress gave us and we very 
much appreciate the authorities you provided us in the Disaster 
Recovery Reform Act that we are very actively implementing, 
everything from our ability to increase administrative cost 
reimbursement to our State partners to authorities with our 
work force. So we asked you and you provided a great deal of 
authority in that legislation.
    Mr. Rose. That authority basically authorizes you to 
prepare for something, pre-advance contracting, so on and so 
forth. Is there any mechanism in place--and this is for all of 
you--for us to ensure, district by district, that you have done 
that? So, if I could have a superstorm hit next week, is there 
any database that I can look and say, ``All right, man, FEMA's 
good to go; we got our X, Y, Z contractors already in place''? 
Do we have any system in place where I can ensure that you have 
done your job?
    Mr. Kamoie. So what we have is our National Preparedness 
Report, and we work with our State and local partners, where 
they report to us their capability gaps. We invest in 
nondisaster and preparedness grant funding. So we do report 
against kind-of core capabilities that do give us a general 
sense of our preparedness. I will have to go back and talk with 
my colleagues about whether that is county by county.
    Mr. Rose. Yes. That would be--or Congressional district by 
Congressional district, however you want to organize, it would 
be wonderful. I do want to make a formal request that you get 
back to us on that, that we have--you have just said that when 
it comes to contracting, giving us the authority you need, now 
we want to be able to check that you have exercised that 
authority.
    Yes, ma'am.
    Ms. Mak. What we found was that there is inconsistent 
coordination within the regions. Different regions, some 
coordinated a little more regularly, and some did not. So, 
therefore, we did make a recommendation to have more regular 
coordination to achieve those benefits that you are talking 
about because positive relationships can help in terms of the 
FEMA and the State emergency management personnel, providing 
opportunities for both FEMA and the States and localities to 
establish their contracts, the advance contracts that they 
need, and knowing which contracts are available, and then as 
well as FEMA knowing what the State can do to respond initially 
before the Federal Government gets involved.
    Mr. Rose. Absolutely. Look, we will help you find the 
plumbers and the roofers.
    Ms. Mak. We definitely found inconsistencies.
    Mr. Rose. We all have those folks in need of work, but no 
one wants to be caught flat-footed again.
    Thank you, I yield the remainder of my time.
    Mr. Payne. Thank you, sir.
    We will now hear from the gentleman from Texas, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. Appreciate this 
hearing. Certainly the last year that I was in the Texas Senate 
last year, we had a lot of Harvey hearings and became very 
familiar. There was a lot of hand-wringing. Obviously, it is 
tremendously complicated to recover from a disaster, and I 
would commend Commissioner Bush's report from the GAO in Texas, 
which was the point for Harvey recovery in Texas, that Ranking 
Member Crenshaw put into the record. I think that that is a 
very good lessons learned that Texas had in their experience 
interacting with FEMA, including that was a very important 
experience for my State.
    Just specifically, and I wanted to just, Mr. Kamoie, just 
wanted to go to your testimony, your written testimony. You 
outline a series of changes or improvements, and I will just 
quickly read the headlines here: Increasing the dollar ceiling, 
adjusting periods of performance, enhancing the transportation 
capabilities for island responses, increasing the number of 
contracting personnel to support disasters, increasing the 
number of disaster acquisition response team staff, increasing 
the number of senior-level acquisition personnel in filling 
critical vacancies. So my question to you is: It sounds like 
these improvements are under way, but are there pieces of these 
improvements that need to be--that you need statutory 
assistance? In other words, is there legislation that is 
required from the U.S. Congress to assist FEMA to implement 
these changes? These seem like good changes. I think they are 
well thought through, I know you are implementing them, but 
what can we do? What is our role?
    Mr. Kamoie. Thank you, Congressman Taylor. In a number of 
cases that you have cited, they are completed. Our increasing 
the dollar ceiling, adjusting periods of performance, enhancing 
transportation capabilities. We will need to think about 
whether any statutory changes are required to implement the 
others. At this point, I cannot think of any, but if we do, we 
will follow up with you.
    Mr. Taylor. OK. I mean, you know, obviously, our job is to 
legislate, and your job is to act. So, if there is statutory 
assistance that you need, you know, let us know. I mean, we 
obviously are all here for the same thing, to have a great 
disaster response recovery effort, and that is a collective 
effort, and certainly Congress is part of that. If you don't 
have the statutory authority that you need, I think just 
building on what Congressman Rose mentioned.
    Shifting over to Texas specifically, something that I heard 
over and over again last year from local governments was the 
inability to understand from FEMA whether or not a contract had 
been awarded, what the extent was, the services that would be 
provided. They were generally frustrated that they just 
couldn't seem to quite get straight answers. I just wanted to 
kind-of hear what your thoughts were about how we can get more 
certainty for a subdivision to know, hey, this is taken care 
of. You know, this tarp thing is taken care of. This water 
thing is taken care of. These meals are taken care of. This 
debris removal has been taken care of. Because that is--clearly 
certainty is important for people to operate because if they 
know you don't have it, well, then, they can go and work on it 
themselves. But if they are unclear, if they call and say, 
``Well, I don't know, we can't help you,'' that is very 
frustrating for that mayor, for the head of that particular MUD 
district, whatever that subdivision in Texas may be.
    Mr. Kamoie. So I appreciate that, Congressman Taylor. I 
think it is going to require more communication and 
coordination with our State and local partners, our Procurement 
Disaster Assistance Team, these folks we deploy. We will 
continue to provide guidance and help our partners in 
navigating, not just the regulatory requirements but the 
clarity you were asking for in terms of spelling out kind of 
what is in and what is out.
    Then the last thing I will say on the legislative offer, 
again, I appreciate it, and I will just say again, we 
appreciate very much the Disaster Recovery Reform Act that 
Congress passed, gave us a lot of authorities that we needed. 
Thank you.
    Mr. Taylor. OK. So I am sort-of reattacking this, but what 
are you going to do so the next disaster, a mayor knows when he 
calls, he gets a definitive answer, that, ``Yes, it has been 
approved,'' ``No, it hasn't''?
    Mr. Kamoie. We will continue to reach out through our 
regional offices, through our joint field offices who are on 
the ground in the local community, to make sure that we are 
providing the accurate information and answering the questions. 
So, you know, what we can do is ensure that our personnel are 
trained and have built relationships with those local officials 
so that they can get their questions answered in both a timely 
and accurate way. So I will be sure that we will take back and 
work with our regional colleagues and our Procurement Disaster 
Assistance Team to make sure that we are providing that 
guidance.
    Mr. Taylor. I have to say, I am not totally satisfied with 
your answer, but I appreciate your effort to respond. You are 
welcome to come back to my office and respond in writing, but I 
really want to--this is important. Subdivisions deserve to know 
certainty. Saying we are going to train well and work harder, 
that doesn't--I am sorry, I am out of time, but we can discuss 
this offline.
    Thank you, Mr. Chairman. I yield back.
    Mr. Payne. Thank you, sir.
    Next, we will have the gentle lady from New York, Ms. 
Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman. I thank our 
Ranking Member and our alternative Chair or additional Chair, 
Ms. Torres, and I thank our expert witness for appearing before 
us today.
    I just want to say at the outset that I want to join in 
Congressman Rose's request for a district-by-district 
contracting assessment and plan. I think that that will be very 
important because we are talking about natural disasters, and 
we are talking about them as if they are in the past when just 
last week we had a suite of tornadoes rip through the southern 
part of our Nation. So I believe, quite frankly, that we need 
to be forward-leaning with respect to this, and it is really 
critical that FEMA get its footing, so that, again, we are able 
to move forward with the forecast of a lot of these naturally-
occurring types of events so that we are not in retrospect or 
we are not flat-footed dealing with these issues. That is why I 
think this National Interest Action System is so very important 
because when you don't have a consistent basis for analysis, 
you know, 10 years here, 5 years there, 6 months there, it 
doesn't give you the real view to how we can improve and what 
our improvement has been. You may be able to sit here and say: 
I see improvement.
    For the rest of us, we are saying: Well, I was hit by 
Superstorm Sandy, and people in my district are still 
recovering, right?
    So I want to drill down a little bit more about the NIA 
code.
    Ms. Mak, in a sentence or two, can you please describe what 
the National Interest Action code is?
    Ms. Mak. Sure. Thank you for the question. Basically when 
any contract is being put in place, contracting officials have 
to put that information into this system, this Federal database 
system. When you track it, when we do our analysis, we go pull 
it from that NIA code. Now, when the NIA code is closed, to be 
able to track that information, we actually did some data 
analysis after the NIA codes were closed to just see what kind 
of information we could get. We used the description field.
    Ms. Clarke. So essentially these codes allow you and the 
public to track contracting activity for specific disasters?
    Ms. Mak. Absolutely, you are correct.
    Ms. Clarke. From GAO's perspective, how long should a NIA 
code remain open after a disaster to accurately track contract 
obligations?
    Ms. Mak. I think it differs from disaster to disaster, 
depending on how large the impact, how far it is, and those 
kinds of things. So we don't really say what time frame, but we 
have noticed that in the past they are open anywhere from 2 to 
4 years, at least better than a 1-year--or less than a year. 
And then----
    Ms. Clarke. Right. So the question becomes, should we be 
categorizing? For instance, a rural community gets hit by a 
tornado, you are dealing with a less densely-populated area 
than perhaps an urban area or even a suburban area. Or maybe 
even looking at the regions, you know, what the density--
population density and the assets in a particular area would 
be. Do you think that sort of categorizing would then enable us 
to look at what time frames should be applicable or----
    Ms. Mak. That is possible, if they collect--if the data is 
historically collected and that analysis is done. As far as we 
are aware of, it is not.
    Ms. Clarke. Very well. I want to shift gears very quickly 
to the question of these debris removal contracts. Well, there 
is going to be a lot of debris removal, when you see these 
types of events occurring on an almost monthly basis. So I want 
to ask, Ms. Trimble, regarding policy changes FEMA made for 
overseeing debris removal operations, the new policy eliminated 
Federal and State oversight of debris removal activities. 
Because of the policy changes, local contractors in Florida and 
Georgia, for instance, were able to overstate debris loads and 
overcharge the Federal Government, and this put more than $1.5 
billion of taxpayer dollars at risk. Can you explain this issue 
a bit more?
    Ms. Trimble. Sure. So I think there are two things in play. 
So, in 2016, FEMA consolidated all its different----
    Ms. Clarke. I think your microphone----
    Ms. Trimble. I am sorry. So two points to make here, that 
in 2016, FEMA consolidated all its different pieces of public 
assistance grant program guidance into one consolidated guide. 
However, when it did that, and for example, in the case of 
debris removal, about a hundred pages worth of very specific 
debris removal and monitoring guidance that was available to 
local communities was cut out of, you know, that ultimate guide 
that was published in 2016. So you have two problems. Then, as 
you said, at the same time, the responsibilities for FEMA and 
the States to oversee local debris removal and monitoring 
activities went away. So you had two things happen at the same 
time that I think led to the problems that we saw when our 
teams were out in Florida and Georgia doing their work.
    So, as I alluded to earlier, there really is a need for 
FEMA to provide that more detailed information again. It 
actually still is out there, and some local communities know 
where to find it because they have used it before. But the 
concern is that new communities or new officials in communities 
who haven't worked with it before might not find it as readily.
    Furthermore, you know, just the way the new public 
assistance guidance has been consolidated, it is not 
necessarily clear what certain roles and responsibilities might 
be.
    Ms. Clarke. Very well. I thank you.
    Mr. Kamoie, I am sorry, my time has run out, but I would 
like to ask that if you can do--go back and develop clear rules 
and guidance for monitoring debris removal operations, what 
would be done to comply with those recommendations, if you 
provide that to our Chairman, that would be very helpful.
    Mr. Chairman----
    Mr. Kamoie. Yes, ma'am.
    Ms. Clarke [continuing]. Madam Chairman, I yield back.
    Mr. Payne. Thank you. Next, we will have the gentleman from 
Texas, Mr. Green.
    Mr. Green of Texas. Thank you, Mr. Chairman, and I thank 
all others that I should thank as well.
    Please allow me to thank all of you for what you do. I 
understand that it is very difficult. I have a number of 
questions. The first has to do with CDBGDR. Are there any 
recommendations that you have that would assist you in--for us 
to help you and assist you in the use of the CDBGDR funds, 
community development disaster relief funds. Any 
recommendations?
    Mr. Kamoie. Congressman Green, that is outside my area of 
responsibility and expertise, but I will take that back to the 
agency for my colleagues who would be most familiar with those 
grant programs.
    Mr. Green of Texas. Thank you. I greatly appreciate it. As 
you know, we are still waiting in Texas for some of that 
funding to arrive. So I thought I would just take a shot and 
see if there was some possibility that you might be able to 
give some assistance.
    Here is another one. In my city, we hear the words 
``shelter in place,'' and there are many persons who have no 
shelter to shelter in place. Churches will open their doors, 
and they will sometimes have some minor damages. They provide 
food, blankets. How does FEMA interact with the churches? How 
do we get that done so that they can be properly compensated?
    Mr. Kamoie. So we do have an office of faith-based 
organizations, and its director, Kevin Smith, I will be glad to 
talk with him and perhaps he might be able to follow up with 
you and provide you information on how we interact with faith-
based organizations.
    Mr. Green of Texas. Do you contract with any of the 
churches for shelter? I know that the municipalities will 
usually provide some places for shelter. In Houston, we have 
the Astrodome, and we have other facilities, but do you----
    Mr. Kamoie. I am sorry, Congressman. That is just outside 
my area of knowledge. We will be sure to follow up in writing--
--
    Mr. Green of Texas. OK.
    Mr. Kamoie [continuing]. With information about that.
    Mr. Green of Texas. Well, let me just continue outside your 
area for a few more. Let's talk for just a moment about the 
20,000 pallets of water in Puerto Rico. I went down there--
20,000 pallets of bottled water that did not get used timely. 
Can you tell me anything about that?
    Mr. Kamoie. So my understanding is that the contractor 
distributed water when they were supposed to dispose of it. 
Some of it was past its expiration date, and I believe we 
terminated and wrote to them regarding their noncompliance with 
the contract that we let, for disposal of water bottles, 
plastic caps, and pallets.
    Mr. Green of Texas. Ms. Mak, do you have anything that you 
would add?
    Ms. Mak. This issue really comes down to understanding what 
the requirements are, and that is a challenge that we also 
found that FEMA has faced in its acquisition planning process. 
If you don't--if you can't define what you really need, how 
much you need, and those kinds of things, that is a problem 
because it requires more time for contracting officials. They 
might award initial contract, and then they might have to 
follow up with several other contracts. So we have also asked 
that they really look at the acquisition planning process in 
terms of defining requirements.
    Mr. Green of Texas. Quickly, probably outside your area of 
expertise, but what percentage of your contracts are awarded to 
minorities and women?
    Mr. Kamoie. That is in my area of expertise. I don't know 
the number, but we will follow up in writing with that.
    Mr. Green of Texas. That is a very important thing for you 
to do, and if you would, I would like to also get some sense of 
the number that--number of persons that are from the impacted 
area, that, as you know, in Puerto Rico, there was a big 
complaint, a significant complaint, that people from the area 
were not being utilized. People were coming in from the 
mainland to service people on the island. So it would be of 
great benefit to know these things. Now, how am I assured that 
I will hear from you? Who will be contacting me?
    Mr. Kamoie. Our legislative affairs division will follow up 
with this information.
    Mr. Green of Texas. OK. If they do not, am I at liberty to 
call you?
    Mr. Kamoie. Yes.
    Mr. Green of Texas. OK. Final question, Mr. Chairman, if I 
may, I just want to ask one more.
    Timely payment of contractors--small contractors. I get 
complaints from contractors who are telling me that they are 
not being paid timely. I understand that you no longer handle 
debris. You have stopped contracting that out, the 
municipalities do it. But can you provide any degree of 
oversight? Maybe I should have Ms. Mak respond, but such that 
these small contractors will be paid timely.
    Mr. Payne. Quickly.
    Mr. Kamoie. So we certainly can provide guidance to our 
State and local partners about timely payment and our 
expectations regarding how they exercise their responsibility 
under the grant programs. So our Procurement Disaster 
Assistance Team can reinforce that.
    Mr. Green of Texas. Thank you, Mr. Chairman.
    Mr. Payne. Thank you. Let's see. We will quickly try to go 
through maybe one or two questions. I just had a very important 
question that has been concerning me since it was brought to my 
attention. DHS OIG issued a report, OIG-19-32, in March 2019, 
indicating that FEMA unnecessarily shared the personally 
identifiable information and sensitive personally identifiable 
information of 2.3 million of disaster survivors with a 
contractor--shared their personal information with this 
contractor. What safeguards have you put in place to ensure 
that an incident like this does not happen again? I mean, this 
is bank records, Social Security numbers. I mean, you know, the 
most personal information that we hold sacred, that is--you 
know, has been exposed. I mean, over 2 million people. How does 
something like that happen?
    Mr. Kamoie. Thank you, Chairman Payne. So the contractor at 
issue administered the transitional sheltering assistance 
program for us. We changed the business model. It used to be 
that survivors would check in to transitional housing, a hotel, 
provide their credit card, and we would reimburse the survivor 
for those expenses. We changed the business model such that we 
now have the contractor pay hotels directly. But we didn't turn 
off the sharing of the information. So, upon learning that that 
data was still being transmitted to the contractor, who, before 
the business model changed, fully authorized to receive that 
information in administration of the program, we stopped 
sharing the data. We purged it from their systems. We have no 
evidence that that data in their systems was at any time 
breached. We have no evidence that any survivor has suffered 
identity theft or loss because of that sharing.
    Mr. Payne. But did you let them know this has happened?
    Mr. Kamoie. We are working through evaluating the options 
regarding the communication with the----
    Mr. Payne. Evaluating?
    Mr. Kamoie [continuing]. Survivors, and----
    Mr. Payne. Wait a minute. Evaluating the--I think you need 
to get to the task at hand. Evaluating?
    Mr. Kamoie. What I said was we are evaluating what we will 
offer to them and how we will communicate with them regarding 
this, the oversharing of data.
    Mr. Payne. I think this needs to be expedited.
    Mr. Kamoie. I hear you loud and clear, Mr. Chairman.
    Mr. Payne. You know, I mean, how do you know people's 
identities haven't been stolen?
    Mr. Kamoie. We have no evidence that they have been, but 
I----
    Mr. Payne. You don't have any evidence that they haven't?
    Mr. Kamoie [continuing]. They have not been.
    Mr. Payne. You haven't on either side, right, and you have 
no evidence that they haven't been, correct?
    Mr. Kamoie. Correct. So we----
    Mr. Payne. Let me, OIG, please. I know----
    Ms. Trimble. So, since we made the discovery and it was our 
staff who, meeting with both FEMA--well, meeting with FEMA 
initially, looking at the records they had on survivors, it was 
our staff who realized there was personally identifiable 
information that was not required for the administration of the 
program. Our staff then met with the contractor and verified 
that, yes, the contractor had received that unnecessary PII.
    So, as to moving forward, our recommendations are two-fold. 
One, clean-up, clean up the incident at hand and take the steps 
necessary. Mr. Kamoie is right about the steps that FEMA has 
initiated to assess essentially the extent of the damage. It is 
true that there has been no evidence that PII has gotten past 
the contractor out into the public, or what have you.
    The concern is when--from our understanding and information 
shared with us, the contractor only kept basically the past 30 
days' worth of information on its system, that would have shown 
any vulnerabilities. Prior to that, we don't know. We don't 
know if their system perhaps was infiltrated and if that 
information went anywhere, so that is of a concern, but I am 
sure FEMA remains diligent in addressing it.
    The other issue is making sure this doesn't happen again--
--
    Mr. Payne. I would hope so.
    Ms. Trimble [continuing]. Recommendation.
    Mr. Payne. Ms. Mak.
    Mr. Kamoie. So we are reviewing all of our data-sharing 
agreements with all of our programs that share sensitive 
information and the contractors with whom that information is 
shared so that we make sure the cybersecurity safeguards are in 
place, and the data-sharing agreements are in place to protect 
the information because we know that survivors not only expect 
us to deliver the care that they need after a disaster, but 
they expect us to protect their information as well.
    Mr. Payne. Well, I hope that FEMA has the urgency that I 
feel that this needs to be rectified. You know, I mean, you 
know, you are being kind-of, you know, matter-of-fact about it. 
This is serious. This is frightening. Well, lend me your Social 
Security number and your bank records for me to hold on to. I 
mean, you know, let me just hold it.
    Mr. Kamoie. We agree with you, with the seriousness of it, 
and we agree with you on the urgency.
    Mr. Payne. That is 2.3 million people's information.
    Mr. Kamoie. I agree, Mr. Chairman.
    Mr. Payne. It is absolutely unacceptable. I am sorry. I 
have gone over, but I felt that had to be borne out.
    No? Mister--no.
    No?
    Ms. Torres Small. Just very quickly----
    Mr. Payne. Chairwoman.
    Ms. Torres Small. Thank you, Mr. Chair.
    Mr. Kamoie, I was troubled by your comment that you don't 
see systemic problems. I think--or that--your question about 
whether systemic problems with contracting exists, and I want 
to speak specifically to a systemic problem that I see, which 
is the contracting work force. I appreciate Ms. Mak's comments 
about needing an in-depth study for the work force needs. I 
know that you said it in your opening statement that there were 
some gains that had been made in your contracting work force. 
But based on the information I have, you are still a third 
understaffed, and you have actually lost staff since 2017.
    So I appreciate your agreement that we do need that in-
depth study. When can we expect to see that in-depth study?
    Mr. Kamoie. Let me be clear, Chairwoman Torres Small. In 
response to Congressman Titus' question about whether the 
cancellation for non-performance of 4 contracts represented a 
systemic problem, I don't know if it does. That does not mean I 
don't see systemic opportunities to improve our contracting 
process. It is what we have been doing. I was simply citing the 
4 terminations for nonperformance. It is a challenge to recruit 
and retain 1,102 contracting specialists in the Federal 
Government.
    Ms. Torres Small. Mr. Kamoie--I apologize--the question was 
just, when can we expect to see the study?
    Mr. Kamoie. I believe the completion date that we estimated 
to the GAO recommendation was in August, but I will follow up 
with a more specific date. Sorry, I just don't remember the 
exact date, but we have already committed to a date, and we 
will provide that to you.
    Ms. Torres Small. Thank you. You are re-upping that 
commitment to the date----
    Mr. Kamoie. Absolutely.
    Ms. Torres Small. Thank you. I yield my time.
    Mr. Kamoie. I am sorry I didn't remember the date.
    Ms. Torres Small. I yield my time.
    Mr. Payne. Thank you, Madam Chair.
    I would like to ask unanimous consent for the Center for a 
New Economy's report on ``Federal Contracting in the Post-
Disaster Period'' be entered into the record.
    Assuming no objections, without objection, so ordered.\2\
---------------------------------------------------------------------------
    \2\ The information has been retained in committee files and is 
available at https://grupocne.org/wp-content/uploads/2018/09/
Federal_Contracts_FINAL_withcover-1.pdf.
---------------------------------------------------------------------------
    Mr. Payne. I would like to thank the witnesses for their 
valuable testimony and the Members for their questions.
    The Members of the committee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, this subcommittee stands 
adjourned.
    [Whereupon, at 11:54 a.m., the subcommittees were 
adjourned.]



                            A P P E N D I X

                              ----------                              

      Questions From Chairman Bennie G. Thompson for Brian Kamoie
    Question 1. Please provide an up-to-date list of all advance 
contracts that FEMA has in place. For each contract, please include the 
acquisition name, description of goods or services rendered, contractor 
name and DUNS number, contract number, base award date, and total 
contract value.
    Question 2a. Please identify all advance contracts FEMA has awarded 
since August 25, 2017--the day Hurricane Harvey made landfall.
    Of these contracts, how many were awarded for new requirements?
    Question 2b. How many were awarded for existing requirements 
following expiration of the prior contract's period of performance?
    Answer. The attached Excel Spreadsheet details the advance 
contracts FEMA has in place as of May 1, 2019. None of these contracts 
are for new requirements; they are follow-on contracts to pre-
positioned contracts established in response to PKEMRA requirements.*
---------------------------------------------------------------------------
    * The attachment has been retained in committee files.
---------------------------------------------------------------------------
    Question 3a. At the May 9 joint subcommittee hearing, you told 
Members that during the 2017 hurricane season, FEMA terminated 4 
contracts for non-performance. However, according to OIG-19-38, FEMA 
supplied the Department of Homeland Security Office of Inspector 
General (DHS OIG) with documentation showing a total of 19 contract 
cancelations related to Hurricane Maria alone.
    Please provide a comprehensive list of FEMA contracts that were 
canceled during the response to and recovery from Hurricanes Harvey, 
Irma, and Maria. For each contract, please include the contract number, 
description of goods or services for which the contract was awarded, 
date of award, date of cancelation, vendor name and DUNS number, total 
contract amount, and amount obligated prior to cancelation.
    Question 3b. The DHS OIG reported that the high number of contract 
cancelations during the 2017 hurricane season ``could potentially 
indicate systemic contracting deficiencies that FEMA needs to 
address.'' What, if any, action has FEMA taken to address these 
deficiencies?
    Answer. There were 35 contracts terminated for the 3 2017 
hurricanes; Harvey, Irma, and Maria. Of those 35, 1 contract was 
cancelled for cause, (the equivalent of default in commercial 
contracting), and 4 contracts were cancelled for lack of performance 
during the 2017 hurricane season.
    All but 1 of the 5 contracts cancelled for lack of performance were 
terminated for the convenience of the Government. This is a standard 
contracting term used to describe a non-punitive process. During a 
disaster response, planning needs can change. If an initiated contract 
is no longer required as anticipated, it can be terminated at the 
convenience of the Government an action that ends contract performance 
without penalizing the vendor.
    Per your request, please see the attached file. The spreadsheet 
contains a detailed list of contracts cancelled during the 2017 
hurricane season and shows the terminated contracts by individual 
contract action. In two circumstances, there were partial contract 
actions made on the same contract but at different times. The total 
number of terminated contracts remained the same throughout.
    FEMA OCPO is working collaboratively with the DHS OIG to address 
their recommendations. FEMA is committed to ensuring that mission needs 
are met with an effective procurement process.
    FEMA has conducted the following training sessions:
  <bullet> Mission Readiness Training (MRT): April 22-26, 2019.
  <bullet> Disaster Readiness Training Webinar: May 16, 2019.
    Topics covered during both training opportunities included using 
the Disaster Response Registry, Buy American/Trade Agreements Act, set-
asides, reporting requirements, lessons learned and acquisition best 
practices. These training sessions contained a discussion on current 
procurement policies, and the experience is designed to increase the 
business knowledge of acquisition professionals supporting FEMA's 
mission.
    Question 4. Under the Rehabilitation Act of 1973, any recipient or 
subrecipient of Federal funds, including contractors or subcontractors, 
is required to make their products, services, activities, and programs 
accessible to individuals with disabilities. Please send documentation 
of FEMA's efforts to monitor and enforce this requirement.
    Answer. There is language in external-facing FEMA contracts 
regarding Section 504 obligations. Section 504 requirements are a part 
of training for FEMA contracting officers. Additionally, Section 504 
accessibility requirements are a part of the FEMA Section 504 Public-
Facing Implementation Plan. This plan will be published on FEMA's 
website soon. One item identified for action in the plan is providing 
notice of Section 504 responsibilities to all contractors carrying out 
public-facing activities on behalf of FEMA. The plan is supported by 
FEMA program offices with points of contact for Section 504 access 
requirements and is monitored through the Office of Equal Rights (OER) 
and Access Coordinators.
    Section 504 requirements are also the responsibility of the OER 
Cadre during disasters. The Cadre reviews housing programs to ensure 
accessible housing for persons with disabilities; accessibility to all 
FEMA and State disaster programs, services, and benefits; provides 
community outreach to impacted communities to ensure that information 
about the rights of all disaster survivors, including those with 
disabilities, is made accessible and available to the whole community; 
and provides guidance and technical assistance to FEMA programs and 
State counterparts to ensure civil rights compliance, including Section 
504.
    Question 5a. How does FEMA ensure that contractors providing 
temporary housing assistance to disaster survivors make housing 
accessible to persons with disabilities as required by law?
    Answer. In addition to actions taken by FEMA Contracting Office, 
the OER Cadre monitors housing program activity in providing mobile 
homes and trailers to ensure that accessible housing is available to 
disaster survivors with disabilities, and to ensure that temporary 
housing assistance programs consider the needs of persons with 
disabilities by maintaining adequate accessible housing stock for the 
impacted area.
    The Regional Disability Integration Advisor (RDIA) prepares 
individuals and families by strengthening communities before, during, 
and after disasters by providing guidance, methods, and strategies to 
integrate individuals with disabilities and coordinate emergency 
management efforts to meet the needs of all citizens, including 
children and adults with disabilities and others with access and 
functional needs.
    The RDIS provides overall direction and coordination around all 
activities within the region, including during disaster response and 
recovery operations.
    Question 5b. How does FEMA ensure that the multiple policy 
directives intended to protect the rights of people with disabilities 
are properly conveyed to States and localities?
    Answer. Information from policy directives is provided through the 
FEMA Office of Equal Rights (and other FEMA programs such as External 
Affairs, Individual and Household Programs) in several Section 508 
compliant formats and in different languages as determined by the 
demographics of the impacted communities. This information is 
distributed through flyers, local media, the internet, and public 
meetings. FEMA information about the rights of persons with 
disabilities is also part of the information supplied through FEMA's 
website. FEMA and the DHS Office for Civil Rights and Civil Liberties 
have communicated with the States and localities that are recipients of 
Federal financial assistance about their obligations under Section 504 
of the Rehabilitation Act through letters and publication of guidance 
resources on-line.
    During steady state, Regional Disability Integration Advisors 
(RDIS) assigned to each region, work with States and localities to 
provide guidance related to housing needs of people with disabilities. 
RDIS form partnerships with housing organizations and agencies to 
ensure that the rights of people with disabilities are planning factors 
in all housing discussions. During active disasters the RDIS will work 
closely with a Disability Integration Advisor deployed to serve as 
advisor across all housing activities. The Disability Integration 
Advisor participates in State-run housing calls and brings disability 
subject-matter expertise which is integrated throughout the planning 
process.
    Question 6. In a 2019 report (GAO-19-281), GAO found that FEMA had 
challenges developing requirements for post-disaster contracts. For 
example, following Hurricane Harvey, FEMA awarded contracts to supply a 
food bank. But the requirement for food was expressed in ``truck 
loads'' rather than numbers of meals or pallets. Because of this, 
FEMA's initial contracting capacity fell short, and an additional 
contract had to be awarded. How can FEMA's program offices better 
identify requirements for critical goods and services following 
disasters?
    Answer. FEMA's Office of the Chief Procurement Officer has a 
Portfolio Management Section to support customer acquisition needs. The 
role of the Portfolio Manager is to educate and assist the program 
office with identifying the problem statement and requirements. 
Portfolio Managers will also assist program offices with the completion 
of the appropriate procurement documents so Contracting Officers can 
execute better contracts. Currently, the staff of 5 supports mostly 
steady-state requirements and pre-positioned contracts. However, after 
the 2017 Hurricane Season, Portfolio Managers deployed to disaster 
locations to assist field operations with developing their 
requirements. This effort is expected to help improve post-disaster 
contracting by ensuring requirements are clear and actionable. In 
addition, the Portfolio Management Section will add 4 additional 
positions in the near term to support the development of requirements 
in the field, before and during disasters.
    Question 7. In May 2018, there were reports of FEMA spending $74 
million to Carnival Corporation to house Federal aid workers and first 
responders after Hurricanes Irma and Maria. Reportedly, the contracted 
ship from Carnival was only half full and taxpayers paid more than $800 
per night for passengers. Please explain how the Carnival Corporation 
contract was awarded and how FEMA determined the decision to lease the 
cruise ship to be cost efficient.
    Answer. In response to overwhelming demand for housing in the U.S. 
Virgin Islands (USVI) immediately following Hurricane Maria, FEMA 
chartered the cruise ship Carnival Fascination for shipboard lodging of 
FEMA employees, employees of other Federal agencies, and other first 
responders destined for, or already located in the USVI for recovery 
operations. The contract price was fully inclusive of shipboard lodging 
(including showers and other facilities) and food.
    Price reasonableness was established based on full and open 
competition. Eight offers were received in response to this 
solicitation. The price analysis determined that the maximum price per 
person of the cruise ship submitted by offerors were $225 per person, 
the minimum was $123.68 per unit and the average was $176.30. 
Carnival's per-unit cost was below the average price per person. All 
other vendors were found to be technically unacceptable. While the 
contract was awarded for $74 million, subsequent modifications reduced 
the value of this contract to $49 million.
      Question From Chairman Donald M. Payne, Jr. for Brian Kamoie
    Question. A recent DHS OIG Management Alert (OIG-19-32) included 
recommendations for how FEMA can better handle disaster survivors' data 
to prevent another data violation from occurring. Though FEMA concurred 
with these recommendations, the agency said that the recommendations 
will not be fully implemented until June 2020. Please explain why it 
will take FEMA until next hurricane season to implement these 
recommendations.
    Answer. The June 2020 estimated date of completion was provided to 
DHS OIG prior to a security assessment being finalized.
    However, DHS deployed a Joint Assessment Team on-site at the 
Corporate Lodging Consultants (CLC) to determine the security posture 
of the CLC system, and detect any system vulnerabilities, including any 
further threats or impacts from the incident. DHS and FEMA concluded 
that the current security posture of the CLC network that hosts FEMA 
data is below DHS security standards and issued 11 vulnerability 
findings.
    To date, all vulnerabilities identified in the Security Assessment 
of CLC Final Report dated April 2, 2019 have been remediated. A new 
network environment was put in place to remediate the remaining 
outstanding vulnerabilities and to ensure CLC's environment is in 
compliance with DHS Sensitive Systems Policy Directive 4300A.
    The FEMA-DHS Joint Assessment Team (JAT) conducted a security 
assessment on the revised architecture, including the new and old 
environments, at the CLC location in Atlanta, Georgia, from July 9-July 
18, 2019. FEMA anticipates providing a supplemental report based on 
this new assessment by October 1, 2019.
     Question From Chairwoman Xochitl Torres Small for Brian Kamoie
    Question. GAO recently recommended (GAO-19-281) that FEMA assess 
its contracting work force needs--including staffing levels, mission 
needs, and skill gaps--at FEMA headquarters, regional offices, and 
among FEMA's Disaster Acquisition Response Team (DART). When will this 
assessment be complete, and will you commit to providing committee 
staff with a copy of the assessment once it is complete?
    Answer. FEMA's Office of the Chief Procurement Officer (OCPO) 
assesses its work force on an annual basis to determine the appropriate 
number of contract officials needed to meet its mission. At the 
beginning of each fiscal year, an 1102 staffing model exercise is 
conducted by all DHS contracting activities. The exercise is based on 
the current inventory of GS-1102 personnel, number of contract actions, 
and hours performed (direct and indirect) by GS-1102 personnel. The 
calculation produced by the model assists management by identifying the 
number of personnel needed to perform the contract actions. FEMA 
completed its staffing model exercise on January 28, 2019.
    To address its immediate skill gaps and personnel needs, FEMA OCPO 
has entered into a contract for acquisition support services for 
additional personnel to temporarily fill the gaps found during the 
assessment. In addition, FEMA OCPO plans to hire Cadre of On-Call 
Response and Recovery Employees to provide dedicated support during 
disasters.
    The staffing model exercise for fiscal year 2018 is attached to 
this response.*
---------------------------------------------------------------------------
    * The attachment has been retained in committee files.
---------------------------------------------------------------------------
           Questions From Honorable Max Rose for Brian Kamoie
    Question 1. Is there any mechanism in place to ensure that the 
various FEMA regions have adequate amounts of prepositioned contracts 
in place before a disaster strikes?
    Question 2. What, if any, efforts does FEMA make to track this 
information on a county-by-county or Congressional-district-by-
Congressional-district basis? Please provide this information if it is, 
in fact, available.
    Answer. All prepositioned contracts are available to all FEMA 
contracting personnel without regard to region. FEMA does not track 
contract activity by county or Congressional district.
           Questions From Honorable Al Green for Brian Kamoie
    Question 1. After Hurricane Harvey, the Texas General Land Office 
(GLO) worked closely with FEMA to account for the needs of every Texan 
affected by the storm. GLO relied on FEMA for accurate data to assist 
victims in a timely manner, particularly when it came to temporary 
housing. Unfortunately, I have been told that FEMA provided data to GLO 
that was incomplete, late, and even incorrect. GLO struggled to make 
use of the temporary housing data, and multiple times FEMA had to 
recall the data and resend correct information. According to GLO, the 
problems with the data FEMA shared were so bad that at one point more 
than 200 people in the logistical implementation process were standing 
by doing nothing because GLO was waiting on FEMA for actionable 
information. What has FEMA learned from its experience collaborating 
with States during the 2017 hurricane season, and what is the agency 
doing to improve its data-sharing capabilities ahead of the 2019 
hurricane season?
    Answer. The Texas General Land Office (GLO) implemented its first 
State-managed direct housing mission by executing an Inter-Governmental 
Services Agreement (IGSA) with FEMA. The IGSA was intended to allow 
greater flexibility in securing housing solutions as well as a 
streamlined approach to long-term recovery. Although FEMA implemented a 
new and creative solution, FEMA learned that we must define roles and 
responsibilities across all phases of State-led housing missions, 
increase data collection and sharing capabilities, and work with States 
to increase their capacity to succeed in the future.
    Privacy Act and I.T. security-related restrictions contributed to 
challenges providing Texas GLO and their contractors direct access to 
Housing Operations Management Enterprise System (HOMES), FEMA's system 
of record for direct housing, which contributed to the challenges 
experienced in operational data sharing for the housing mission. FEMA 
has identified that many HOMES access issues can be mitigated by 
working with States to establish plans and protocols for State-
Administered Direct Housing prior to disaster declarations. To address 
this issue, FEMA is developing a State-Administered Direct Housing 
Grant Guide to provide guidance to States, territories, and Tribal 
nations on the process, roles, and responsibilities for implementing 
direct housing and permanent housing construction through a grant, 
provided under the Disaster Recovery Reform Act. This Guide will also 
include templates to streamline the process of standing up housing 
missions, establishing roles and responsibilities, and promoting 
effective operational data sharing.
    The Texas housing mission also demonstrated FEMA's data system 
needs to be more flexible and receive updates to account for new 
housing solutions deployed in the 2017 and 2018 hurricane seasons. As 
part of the Grants Management Modernization effort, FEMA is developing 
its next-generation direct housing system of record which will provide 
a common operating platform for all users involved in housing missions. 
This new system of record will support State-led housing missions and 
provide a dynamic environment to better inform decision makers.
    In regard to data sharing, FEMA completed Phase 1 of a multi-phase 
internal Information Sharing Assessment to help ensure the agency will 
properly share data during the 2019 hurricane season while also 
adhering to all information security, information law, and privacy 
requirements.
    The assessment:
  <bullet> Created a new workflow process to draft Information Sharing 
        Access Agreements to be used in the 2019 hurricane season, 
        which will expedite completion of the Personally Identifiable 
        Information (PII) data-sharing agreements, to include all 
        applicable U.S. Department of Housing and Urban Development 
        (HUD) data sharing.
  <bullet> Documented and consolidated all Recovery data sharing with 
        HUD, working closely with Todd Richardson, HUD's General Deputy 
        Assistant Secretary. In addition, HUD signed a new blanket 
        ``Agreement for Release of Non-PII Data'' that allows FEMA to 
        very rapidly share all non-PII data.
  <bullet> Inventoried all active automated and manual PII information-
        sharing agreements to ensure they meet security and privacy 
        standards so there will be no discontinuance of services during 
        the 2019 hurricane season, to include all applicable HUD data 
        sharing.
  <bullet> Created a new Communications plan to inform FEMA Regions and 
        Joint Field Offices of all information sharing support services 
        available within RAD to further expedite data sharing during 
        the 2019 hurricane season.
  <bullet> Expanded Recovery data available on OpenFEMA, which presents 
        FEMA data in an open forum, to provide additional data fields, 
        better data dictionaries, and simplified dataset downloads 
        capabilities.
    Through the Disaster Assistance Improvement Program, FEMA has 
expanded its data-sharing interface with HUD and Small Business 
Administration (SBA), including updating the Computer Matching 
Agreements with both agencies.
    The FEMA/HUD data exchange provides FEMA registration data to HUD 
for the purpose of determining and informing both agencies of 
duplications of housing benefits. When a disaster survivor registers 
with FEMA, it checks with HUD to determine whether that person is 
already receiving assistance from HUD. If so, then HUD informs FEMA of 
the type of assistance being provided by HUD. If HUD is not providing 
assistance, then FEMA sends more detail about the registrant, including 
information about any rental units provided by FEMA.
    FEMA has 3 data exchanges in place with SBA:
    1. ``Batch'' import/export of FEMA registrations.--With this 
        integration, FEMA queues up batches of registrations as they 
        get submitted either on-line (on DisasterAssistance.gov) or by 
        the FEMA call center. Every 10-15 minutes, SBA retrieves these 
        registrations from FEMA's system electronically. For FEMA 
        registrants who have also applied for an SBA disaster loan, the 
        SBA provides updates on the decisions made on these loan 
        applications electronically back to FEMA.
    2. FEMA Disaster Assistance Center/SBA Electronic Loan Application 
        (ELA).--Disaster survivors who register with FEMA on-line at 
        DisasterAssistance.gov and who meet certain eligibility 
        criteria are presented with an option to apply for an SBA 
        disaster loan on-line. A FEMA registrant who opts to apply for 
        a loan, clicks an ``Apply'' link from the Disaster Assistance 
        Center which redirects the survivor to SBA's ELA website. SBA's 
        ELA electronically retrieves the data that the survivor already 
        entered to prepopulate the electronic loan application, 
        preventing the need to duplicate data entry.
    3. Duplication of Benefits.--FEMA hosts a service that enables SBA 
        to view a specific set of information about FEMA registrants 
        for the purpose of determining what benefits those disaster 
        survivors are receiving from FEMA.
    Question 2. If a hurricane strikes the United States this year, 
FEMA will need to rely on the relationships that might be strained as a 
result of problems like what GLO experienced in 2017. What is FEMA 
doing to ensure State partners have the utmost confidence in the agency 
ahead of the 2019 hurricane season?
    Answer. FEMA currently provides on-site and virtual technical 
assistance to SLTT partners through the FEMA Regions across program 
areas. Following the historic 2017 disaster season, FEMA announced the 
agency's intention to enhance customer service and increase the 
efficiency of program delivery by embedding FEMA staff with State, 
local, Tribal, and territorial (SLTT) partners where appropriate and 
based on a SLTT's identified capability gap. The purpose of FIT is to 
ensure that FEMA is helping its non-Federal partners improve its 
ability to prepare for and respond to disasters. Since the initiative's 
launch, FITs have supported State and local disaster response efforts 
and provided technical assistance to numerous local, State, and 
Federally-declared disasters and emergencies.
    The Post-Katrina Emergency Management Reform Act (PKEMRA) requires 
all States and territories to send an assessment of their emergency 
management capabilities to FEMA on an annual basis. States and 
territories meet this requirement by completing the Threat and Hazard 
Identification and Risk Assessment/Stakeholder Preparedness Review 
(THIRA/SPR). FEMA works with the States and territories throughout the 
year to help them understand the assessment process, collect, and 
submit useful and actionable information, and provide appropriate 
context for that information.
    FEMA also provides invitational travel for one representative from 
each State/territory to attend annual technical assistance deliveries 
designed to help States/territories understand and complete the 
assessment and apply the results. During these deliveries, FEMA:
  <bullet> Provides detailed walkthroughs of the assessment process;
  <bullet> Explains how State/territory capability assessments advance 
        National preparedness strategic goals;
  <bullet> Identifies ways that States/territories can improve their 
        assessments;
  <bullet> Shares tools, resources, and guidance to help communities 
        conduct their assessments;
  <bullet> Gathers feedback on how FEMA can improve future technical 
        support for conducting assessments;
  <bullet> Offers suggestions for how States/territories can apply the 
        results of their assessments; and
  <bullet> Shares how FEMA uses assessment results.
    During these deliveries, FEMA personnel engage directly with State/
territory representatives, providing guidance and support, answering 
questions and addressing concerns, and engaging in dialogs on a variety 
of topics. This affords an opportunity for FEMA to build and further 
develop relationships with the States/territories. Deliveries also 
feature opportunities for States/territories to share lessons learned 
and best practices with one another and ask for FEMA guidance and 
feedback on their current assessments.
    FEMA uses these assessments to better understand State/territory 
capabilities, including potential gaps and shortfalls, from each State/
territory's point of view. FEMA also uses this information to help 
States/territories build and sustain their capabilities and works with 
States/territories to help them better understand how FEMA uses the 
information they provide.
    Furthermore, the FEMA Continuous Improvement Program released the 
Continuous Improvement Planning Toolkit (CIPT) on May 22, 2019 to 
provide guidance, tools, and templates to assist SLTT partners with 
conducting continuous improvement activities. The CIPT is available to 
SLTT on the FEMA Preparedness Toolkit.
    Question 3. How has FEMA prepared itself logistically for a 
scenario in which the United States is again struck by three major 
hurricanes in quick succession?
    Answer. FEMA has taken a number of measures to prepare itself for a 
scenario in which the United States is again struck by 3 major 
hurricanes in quick succession. The agency has increased its inventory 
in the Continental United States (CONUS) and outside of the Continental 
United States (OCONUS) to levels that exceed those in 2017. FEMA has 
also expanded the number of Incident Support Base/Federal Staging Area 
Teams ready to quickly deploy and establish staging areas to receive 
life-saving/life-sustaining commodities and supplies for disaster 
survivors. The agency has increased to $3 billion response logistics 
contract capacity, to include key commodity and transportation 
(Maritime and National Cross-Docking) contracts, and developed, with 
the Defense Logistics Agency, 5-year contracts to provide emergency 
fuel (diesel, mogas, jet) and propane for all 50 States, the Caribbean, 
and Guam/CNMI. FEMA has awarded a new contract for 352 new generators 
to add to the existing inventory to assist CONUS and OCONUS disaster 
operations. In addition, FEMA has established a new west coast 
Distribution Center in Tracy, CA with 224,000 sq. ft. increasing the 
capability for storing critical commodities and supplies in the region 
by four-fold, and secured a new Manufactured Housing Contract in 2019 
with next generation specifications, internal fire suppressant systems, 
and the ability to manufacture more units for FEMA Direct Housing.
    Question 4a. The Post-Katrina Emergency Management Reform Act 
requires FEMA to show preference for local vendors when post-disaster 
contracts are awarded. By contracting with local businesses, FEMA can 
help stimulate local economies at a time that they're fighting to 
recover from a natural disaster. When local contractors aren't used, 
FEMA is supposed to provide written justification for all non-local 
awards. According to GAO, FEMA still struggles to consistently document 
cases where local vendors are not used.
    What are you doing to address this issue?
    Question 4b. Of all of the contracts awarded to local vendors 
during the response to and recovery from Hurricanes Harvey, Irma, and 
Maria, how many went to women-, minority-, and veteran-owned 
businesses?
    Answer. FEMA Office of the Chief Procurement Officer's (OCPO) 
Quality Review Standard Operating Procedure (SOP) requires all proposed 
contract actions over $500,000.00, and proposed Time and Material 
contracts at any cost, to be reviewed by the Quality Control and Policy 
Branch. The quality review process includes reviewing the Stafford Act 
requirement to buy local when practical and feasible and documenting 
when it's not. These reviews, in addition to peer and management 
reviews, ensure proposed contract actions are executed in accordance 
with applicable laws and procedures. OCPO will continue their policy of 
post-award reviews to increase compliance and enhance knowledge of the 
acquisition policies and procedures.
    FEMA has conducted the following training sessions:
  <bullet> Mission Readiness Training (MRT): April 22-26, 2019.
  <bullet> Disaster Readiness Training Webinar: May 16, 2019.
    Topics covered during both training opportunities included topics 
such as using the Disaster Response Registry, Local Business 
Transition, Buy American/Trade Agreements Act, set-asides, reporting 
requirements, lessons learned, and acquisition best practices. These 
training sessions contained a discussion on current procurement 
policies, and the experience is designed to increase the business 
knowledge of acquisition professionals supporting FEMA's mission. The 
training sessions included a discussion on the requirements to buy 
local when feasible, in accordance with the Stafford Act.
    The attached Excel spreadsheet, titled Hurricanes Harvey Irma Maria 
Awards--1181295, lists the awards along with their socioeconomic 
designation in FPDS.*
---------------------------------------------------------------------------
    * The attachment has been retained in committee files.
---------------------------------------------------------------------------
       Questions From Honorable Yvette D. Clarke for Brian Kamoie
    Question 1a. At the May 9 joint subcommittee hearing, you told 
Members that FEMA planned to revisit the time lines for closing the 
National Interest Action (NIA) codes for Hurricanes Harvey, Irma, and 
Maria. What is the status of this re-evaluation?
    Question 1b. Will the NIA codes be extended and/or reopened? If 
yes, when will this occur? If no, please explain.
    Answer. Conversations are on-going regarding extending and/or 
reopening the NIA codes for Hurricanes Harvey, Irma, and Maria. The 
decision to extend and/or reopen the codes has not been made, however, 
FEMA does expect a decision in the near term.
      Questions From Honorable Cedric R. Richmond for Brian Kamoie
    Question 1. The Post-Katrina Emergency Management Reform Act 
required FEMA to better coordinate its contracting activity with State 
and local governments. Some improvements have been made over the past 
15 years, but GAO has reported on continued challenges in this area. A 
recent GAO report (GAO-19-93) recommended that FEMA perform outreach to 
State and local governments on the use and establishment of advance 
contracts, identify a centralized resource listing all available 
advance contracts, and communicate information on available advance 
contracts to States and localities through this centralized resource. 
What efforts has FEMA made to address these GAO recommendations?
    Answer. FEMA continues to employ the Procurement Disaster 
Assistance Team (PDAT), which provides contracting outreach and 
education to Public Assistance applicants when contracting under a 
grant. The purpose of this team, in part, is to provide training to 
State, local, Tribal, territorial, and eligible private non-profit 
partners to ensure they are familiar with the Federal procurement 
standards applicable under FEMA's public assistance program. As part of 
the education and outreach, PDAT encourages the use of pre-positioned, 
or advanced, contracts so that public assistance applicants are in a 
better position to respond to and recover from emergencies and major 
disasters. In addition, FEMA is developing a resource toolkit to aid 
State and non-State applicants to properly contract under grants, 
including when establishing pre-disaster contracts, so they are better 
prepared to conduct emergency work.
    FEMA has also made available a list of all advance contracts to 
FEMA contracting personnel through its SharePoint site and via training 
and webinars.
    Question 2a. What types of resources, guidance, and training does 
FEMA provide to State and local governments to help them better adhere 
to Federal contracting requirements?
    How does FEMA track whether these requirements are met?
    Question 2b. What changes have been made to this process since the 
2017 hurricane season?
    Answer. Since the 2017 hurricane season, FEMA continues to employ 
the Procurement Disaster Assistance Team (PDAT), which provides 
contracting outreach and education to public assistance applicants when 
contracting under a grant. The purpose of this team, in part, is to 
provide training to State, local, Tribal, and territorial (SLTT) and 
eligible private non-profit (PNP) partners to ensure they are familiar 
with the Federal procurement standards applicable under FEMA's public 
assistance program. PDAT continues to provide guidance to SLTT and PNP 
partners through in-person and virtual trainings. On the PDAT website, 
public assistance applicants can find comprehensive procurement 
resources, including webinars, checklists, and summary materials to 
help them purchase goods or services in compliance with the Federal 
rules. FEMA is also developing a resource toolkit to aid State and non-
State applicants on establishing pre-disaster contracts, so they are 
better prepared to conduct emergency work.
       Question From Chairman Bennie G. Thompson for Marie A. Mak
    Question. What, if any, additional authorities do you think FEMA 
needs to better execute its disaster contracting mission?
    Answer. Our work did not identify the need for additional 
authorities. However we did find areas for improvement that can help 
FEMA better execute its mission, and we note the steps Congress has 
already taken to bolster our recommendations. Specifically, in April 
2019 the Senate introduced a bipartisan bill--the Federal Advanced 
Contract Enhancement Act--to ensure the 9 recommendations we made in 
December 2018 are addressed, including steps FEMA should take to more 
effectively manage and use its advance contracts and improve 
information sharing with States and localities. In June 2019, 
Representative Thompson also introduced this legislation in the House. 
Legislative steps, such as this, can provide additional assurance that 
our recommendations will be addressed and FEMA's contracting practices 
will be more efficient.
    We also made recommendations about data transparency that we think 
would help FEMA better execute its mission. Specifically, in April 2019 
we found that the full extent of disaster contracting related to the 
2017 disasters is unknown due to changes in the criteria for 
establishing and closing a National interest action (NIA) code in the 
Federal Procurement Data System--Next Generation (FPDS-NG) and DHS's 
inconsistent implementation of the updated criteria for closing codes. 
Currently, the NIA code in FPDS-NG is the only mechanism for 
Government-wide tracking of contract actions for a specific declared 
emergency or contingency event. According to a senior FEMA procurement 
official, the lack of publicly-available information on disaster 
contract obligations may increase the workload of its already strained 
contracting work force, who will need to respond to individual data 
requests from interested parties--such as Congress and other Federal 
agencies--since that data can no longer be tracked and identified 
through FPDS-NG. We recommended: (1) That agencies update the 
memorandum of agreement between the General Services Administration 
(GSA) and the Departments of Defense (DOD) and Homeland Security (OHS) 
outlining the criteria for establishing and closing NIA codes, and (2) 
that OHS, in coordination with DOD and GSA, keep the existing NIA codes 
open, reopen the codes for Hurricanes Harvey, Irma, Florence, and 
Michael, and request that agencies retroactively update applicable 
contract actions, to the extent practicable. OHS did not concur with 
this second recommendation. If OHS does not take action on that 
recommendation, visibility into contracting obligations related to the 
2017 and 2018 major hurricanes will be limited.
           Question From Honorable Al Green for Marie A. Mak
    Question In your investigations and reporting on the 2017 hurricane 
season, what did GAO learn about the accuracy of data shared with 
States by FEMA?
    What recommendations would you make to improve their data-sharing 
capabilities?
    Answer. GAO's reporting following the 2017 hurricanes identified 
some challenges with the information FEMA shares with States, as well 
as broader coordination challenges between FEMA and its State and local 
partners. In December 2018, we identified inconsistencies in 
information on FEMA's advance contracts. For example, we found that 58 
advance contracts included in FEMA's June 2018 advance contract list 
were not identified in training documentation provided to FEMA 
contracting officers the month prior, in May 2018, and 26 of the 
contracts included in the May training documentation were not included 
on the June advance contract list. The missing contracts were for goods 
and services like generators, foreign language interpretation services, 
manufactured housing units, and meals. Without a centralized resource 
listing up-to-date information on FEMA's advance contracts that is 
communicated to States and localities, FEMA may not have the tools they 
need to effectively communicate about advance contracts and use them to 
respond to future disasters. To improve the consistency of information 
FEMA shares with States, we recommended that FEMA identify a single 
centralized resource listing advance contracts that is updated 
regularly to include all available advance contracts, and communicate 
information on available advance contracts through this centralized 
resource to States and localities.
    Question From Chairman Bennie G. Thompson for Katherine Trimble
    Question. What, if any, additional authorities do you think FEMA 
needs to better execute its disaster contracting mission?
    Answer. Our current body of work has not identified additional 
authorities that would help FEMA to better execute its disaster 
contracting mission, but as we reported in our May 2019 report, FEMA 
Should Not Have Awarded Two Contracts to Bronze Star LLC (OIG-19-38), 
FEMA needs to do a better job of executing its existing authorities.
         Question From Honorable Al Green for Katherine Trimble
    Question. In your investigations and reporting on the 2017 
hurricane season, what did the DHS OIG learn about the accuracy of data 
shared with States by FEMA?
    What recommendations would you make to improve their data-sharing 
capabilities?
    Answer. We currently don't have any recommendations addressing 
FEMA's data-sharing capabilities. However, we expect to issue a number 
of reports in the next 6 to 8 months addressing FEMA data accuracy and 
data-sharing issues related to the 2017 disasters. Specifically:
  <bullet> An upcoming report on FEMA information technology will 
        address data accuracy and information sharing between FEMA and 
        Federal and State partners.
  <bullet> Our audit work on FEMA's logistics and supply distribution 
        in Puerto Rico addresses data quality issues related to 
        commodity distribution.
  <bullet> In addition, we are assessing information sharing between 
        FEMA and the Texas General Land Office as part of our audit of 
        the Intergovernmental Service Agreement between the two 
        entities for the provision of direct housing assistance 
        following Hurricane Harvey.
    We are happy to brief you and your staff on the results of these 
audits when they are complete.

                                 <all>
</pre></body></html>
